<html>
<title> - DISCUSSION DRAFT LEGISLATION TO AMEND AND REAUTHORIZE THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT</title>
<body><pre>[Senate Hearing 110-297]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-297
 
                 DISCUSSION DRAFT LEGISLATION TO AMEND 
                  AND REAUTHORIZE THE NATIVE AMERICAN 
             HOUSING ASSISTANCE AND SELF-DETERMINATION ACT 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

38-235 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























































                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director






































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2007....................................     1
Statement of Senator Barrasso....................................    71
Statement of Senator Dorgan......................................     1
Statement of Senator Murkowski...................................     2
Statement of Senator Tester......................................     2

                               Witnesses

Boyd, Rodger J., Deputy Assistant Secretary for Native American 
  Programs, U.S. Department of Housing and Urban Development.....     3
    Prepared statement...........................................     6
Brien, David, Chairman, Turtle Mountain Band of Chippewa Indians.    24
    Prepared statement and supplementary information.............    25
Nutter, Teri, Executive Director, Copper River Basin Housing 
  Authority; accompanied by Dan Duame, Executive Director of the 
  Aleutian Housing Authority.....................................    38
    Prepared statement...........................................    40
Shuravloff, Marty, Chairman, National American Indian Housing 
  Council........................................................    48
    Prepared statement...........................................    49
Walker, Waldo, Chairman, Washoe Tribe of Nevada and California; 
  accompanied by Raymond Gonzales, Executive Director, Washoe 
  Tribal Housing Authority.......................................    30
    Prepared statement...........................................    31
Yazzie, Aneva J., CEO, Navajo Housing Authority..................    33
    Prepared statement...........................................    35

                                Appendix

Cheyenne River Sioux Tribe and Cheyenne River Housing Authority, 
  prepared statement with attachment.............................    82
Indian Housing Advocacy Coalition, prepared statement with 
  attachment.....................................................   132
Pyle, Gregory E., Chief, Choctaw Nation of Oklahoma, prepared 
  statement......................................................    75
Sossamon, Russell, President, Southern Plains Indian Housing 
  Association, prepared statement with attachment................    91


                    DISCUSSION DRAFT LEGISLATION TO 
                   AMEND AND REAUTHORIZE THE NATIVE 
         AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT

                              ----------                              


                        THURSDAY, JULY 19, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:48 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We next will move to the hearing that we have 
scheduled for today on Indian housing. I will describe that 
hearing and ask if my colleagues have any opening statements as 
well.
    The hearing is a discussion on draft legislation to amend 
and reauthorize the Native American Housing Assistance and 
Self-Determination Act. We will receive testimony on a draft 
bill. The reauthorization of what is known as NAHASDA, the 
Native American Housing Assistance and Self-Determination Act, 
is very important. We want to hear from tribal leaders, tribal 
housing directors, and the Administration.
    We are all aware of the grave need for housing in Indian 
Country. During our March hearing on Indian housing, we heard 
alarming statistics. Ninety-thousand Indian families are 
homeless or under-housed. Approximately 40 percent of on-
reservation housing is considered inadequate. Over \1/3\ of 
Indian homes are overcrowded. More than 230,000 housing units 
are immediately needed to provide adequate housing in Indian 
Country.
    Equally disturbing is the fact that funding for Indian 
housing has decreased over the last several years because it 
has not kept up with inflation and the rising cost of building 
materials.
    Our purpose in this discussion draft bill is to strengthen 
NAHASDA by providing tribes with increased flexibility with the 
goal of producing more homes in Indian Country.
    This discussion draft bill is based on suggestions offered 
at our March hearing, and our consultations with individual 
Indian tribes, the National American Indian Housing Council and 
the Administration.
    You will notice that the amendments are incremental changes 
to current law. We realize that ``one size does not fit all'' 
in Indian housing. Housing needs in the Great Plains differ 
greatly from those in the Southwest. This is why we retained 
the basic structure of the Indian Housing Block Grant Program, 
because through this block grant program, tribes and tribal 
housing entities are able to use the funds to serve their 
unique needs.
    We thank you for traveling here today and look forward to 
hearing your suggestions on the discussion draft.
    I remind our witnesses that your full statements will be 
made a part of the record, and we ask that you summarize your 
written statements. As always, the hearing record will remain 
open for two weeks for others who wish to submit written 
statements.
    I recognize the Vice Chairman.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Thank you Mr. Chairman. I am pleased that you are holding 
this hearing this morning regarding the reauthorization of the 
Native American Housing Assistance and Self-Determination Act 
of 1996, which is known throughout Indian and Alaska Native 
communities as NAHASDA.
    It has been more than a decade since Congress enacted 
NAHASDA. Modeled after the highly successful Indian Self-
Determination and Education Assistance Act of 1975, which 
ushered in tribal self-sufficiency as the new direction for 
federal policy, the NAHASDA has also succeeded where so many 
other government programs have failed. In these past ten years, 
Indian and Alaska Native communities have built or 
rehabilitated approximately 60,000 units of housing, not 
counting the accompanying infrastructure and utilities 
development.
    However, there is still more to be done and some alarming 
statistics still remain. While Indian and Alaska Native 
communities have successfully chipped away at the chronic 
housing problem throughout Indian Country, there is still a 
need for an estimated 200,000 homes in Indian and Alaska Native 
communities. Multiple studies have shown that over 40 percent 
of all Indian housing is inadequate and that 21 percent of 
homes in tribal areas are overcrowded, compared with 3 percent 
nationally. Costs to repair or replace tribal housing remains 
stubbornly high at over $125,000, and even higher for tribes in 
rural areas.
    I am confident that this Committee and this Congress will 
see the re-authorization of NAHASDA as an opportunity to 
further improve the management and efficiency of this effective 
program. I look forward to hearing the testimony today and 
working with the Chairman to pass an improved NAHASDA that will 
be an even more effective tool for tribal leaders in their 
battle to reduce poverty and homelessness in their communities.
    The Chairman. Thank you very much.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Mr. Chairman, I once again want to thank 
you for holding this important hearing.
    I want to thank the panelists that are going to testify 
today, and thank you for coming to Washington, D.C. to testify.
    This is a critically important issue. When we talk about 
prioritization in Indian County, health care, of course, is 
probably the first priority, and housing in my perspective is 
one of the close seconds, because in many areas it is not only 
unavailable, it is inadequate, and in some cases it is being 
lived in, but by all other standards it is unlivable.
    So we need to address these issues. I hope this hearing is 
able to shed light and give us the kind of direction that we 
can look forward to some good policies that will help solve 
these housing problems in Indian Country.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Rodger J. Boyd is Deputy Assistant Secretary for Native 
American Programs at the U.S. Department of Housing and Urban 
Development. Mr. Boyd, thank you for being with us.
    As I indicated, your full statement will be made part of 
the record, so we would ask that you summarize.
    OK, all right. Why don't you proceed?
    Thank you very much.

         STATEMENT OF RODGER J. BOYD, DEPUTY ASSISTANT 
         SECRETARY FOR NATIVE AMERICAN PROGRAMS, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Boyd. Thank you, Mr. Chairman and Members of the 
Committee, for inviting me to provide comments on the 
reauthorization of HUD's Indian Housing and Loan Guarantee 
Programs.
    My name is Rodger Boyd and I am HUD's Deputy Assistant 
Secretary for Native American Programs. My office is within the 
Office of Public and Indian Housing, PIH. PIH is responsible 
for the management, operations and oversight of HUD's Native 
American and Native Hawaiian programs.
    These programs are available to 562 federally recognized 
Indian tribes, five State-recognized Indian tribes, and 
Hawaii's Department of Hawaiian Home Lands. We serve these 
entities directly or through their tribally designated housing 
entities by providing grants and loan guarantees designed to 
support affordable housing and community development. Our 
partners are diverse. They are located on Indian reservations 
and Alaska Native villages, and on Hawaiian home lands.
    It is my pleasure to appear before you again. I would like 
to express my appreciation for your continuing efforts to 
improve the housing conditions of American Indians, Alaska 
Natives and Native Hawaiian peoples. From HUD's perspective 
much progress has been made. This momentum needs to be 
sustained as we continue to work together to create a better 
living environment for Native American communities.
    One way to sustain this momentum is through the 
reauthorization of all HUD's Native American and Native 
Hawaiian housing and loan guarantee programs. The department 
supports reauthorization and is examining a number of statutory 
amendments to NAHASDA that may be offered during the 
reauthorization process.
    Here is a brief overview of some of the amendments HUD is 
considering: number one, to amend Section 201(b)(2) of NAHASDA 
to allow essential over-income families to occupy rental 
housing and obtain tenant-based rental assistance. Currently, 
certain over-income non-Indian families may be declared 
essential to a tribal community. These families may participate 
in home ownership and model activities but not in the rental 
program. Rental is a more appropriate activity for people who 
may not stay on the reservation for an extended period of time.
    The B part of that is to amend Section 201(b)(3) so that 
essential Indian families can be housed regardless of income. 
Through an oversight, current law allows only non-Indian 
families to be declared ``essential.''
    Two, amend Section 205 to delete the requirement for useful 
life and binding commitments for home ownership units, and make 
the provision applicable only in the case of rental and lease-
purchase housing that is owned or operated by a grant 
recipient. Current restrictions have sometimes prevented the 
children or spouse of deceased home buyers from inheriting the 
deceased's interest in the property.
    Third, to amend Section 302, the Indian housing block grant 
allocation formula, to stop counting units for FCAS purposes in 
the years after they are conveyed, demolished or disposed of. 
This change would comport with the process established by the 
original negotiated rulemaking committee that crafted the 
Indian housing block grant regulations.
    Also, to amend Title IV of NAHASDA to clarify that issues 
related to the repayment of FCAS allocations do not constitute, 
in and of themselves substantial noncompliance by a grantee. 
The declaration of substantial noncompliance triggers a formal 
administrative hearing and there is no reason to begin such a 
process when a grantee mistakenly reports an over-count or 
under-count of the number of units in management.
    The next proposal is to amend Section 202 for housing 
services to clarify that grantees may use their Indian Housing 
Block Grant funds for maintenance and operations of units 
developed with Indian Housing Block Grant funds. Currently, 
grantees may do so, but this is considered a model activity and 
requires specific HUD approval. The amendment would reduce 
paperwork for grant recipients and HUD staff.
    Amend Section 102 of NAHASDA to simplify and streamline the 
Indian housing plan submission required by deleting the 5-year 
plan requirement, streamlining the 1-year plan to eliminate 
duplicative information, and establish Indian housing plan due 
dates based on the grantee's program year.
    Also amend Section 404 of NAHASDA to delete the requirement 
for a grantee to describe how it would change its programs as a 
result of its experiences. Most grantees do not think it is of 
value to report on this information.
    Amend the Native Hawaiian Loan Guarantee Program, Section 
184A, to allow refinancing and to remove the requirement that 
the annual Native Hawaiian housing plan must include cross 
references to any loan guarantee activity. Both amendments will 
conform the Section 184A program to the Indian Housing Section 
184 Loan Guarantee program.
    The grantee would still be free to provide any loan 
guarantee information in their Native Hawaiian Housing Plan if 
they so desire.
    Mr. Chairman, we have worked with the Committee staff 
members, as well as those on the House side, and with the 
National American Indian Housing Council, with regard to 
legislative amendments as they are developed. We would be 
pleased to continue doing so.
    I would also like to thank you for recently reauthorizing 
Section 184, the Indian Housing Loan Guarantee Program, which 
was signed into law by the President on June 18 of this year. 
The dramatic increase in the use of the Section 184 program is 
a success story for all tribes, TDHEs, and especially for the 
thousands of Native American families that are now homeowners 
as a direct result of this program.
    We do believe that these are exciting times and we look 
forward to continuing our efforts with this Committee and with 
Indian Country to provide better affordable housing and housing 
opportunities for home ownership.
    Thank you.
    [The prepared statement of Mr. Boyd follows:]

 Prepared Statement of Rodger J. Boyd, Deputy Assistant Secretary for 
    Native American Programs, U.S. Department of Housing and Urban 
                              Development

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you very much.
    Mr. Boyd, you mentioned in your testimony provisions in the 
discussion draft which HUD supports. Are there provisions that 
you do not support? Is your testimony that the Administration 
would support the discussion draft that is now before us?
    Mr. Boyd. Mr. Chairman, to date we have not really had an 
opportunity to fully brief and work with Assistant Secretary 
Cabrera on the entirety of this bill. We will have that 
opportunity when he returns to the office next week. At that 
time, as we begin to brief him and work with him, we would like 
to have a continued discussion with this Committee and the 
staff as we further develop our positions on the entirety of 
the bill.
    The Chairman. But you have a chance to review the 
discussion draft. Are there things in the discussion draft that 
you expect we will be hearing from you that you oppose at this 
point?
    Mr. Boyd. I really don't know at this point. I would rather 
have the opportunity to discuss this with the Assistant 
Secretary and then report back to the Committee.
    The Chairman. Would it be all right than in Senate language 
we say that you have expressed no opposition?
    [Laughter.]
    The Chairman. All right. As soon as you have had a chance 
to do the more thorough review, we want to work to move this 
legislation and we want your thoughts and ideas about it.
    You mentioned support for allowing over-income essential 
families to receive tenant-based rental assistance in rental 
housing. Give me your assessment of how that will assist tribes 
and what is the current need for those services?
    Mr. Boyd. Well, right now the regulation allows for 
essential families to be able to participate in NAHASDA 
program. These are for the most part non-Indian families: 
doctors, policemen, nurses, what have you. What our amendment 
proposes to do is to eliminate or do away with the non-Indian 
component of that and just open that up so that both non-Indian 
and Indian professionals that are essential to the community 
can participate in the NAHASDA programs.
    The Chairman. Mr. Boyd, as you look at the housing needs on 
the reservations, I think the testimony we are going to hear 
later today talks about the NAHASDA program and the success of 
it. The fact is that its existence is beneficial to the tribes 
and so on. But virtually all of the testimony describes again 
how dramatically underfunded it is. They talk about there being 
virtually no increase in funding on these issues. I have a list 
in front of me that goes back to Fiscal Year 2002, $648 
million. It is now down, with not only no increase, but a 
slight decrease. And then you consider inflation, and so you 
have washed away a fair amount of the value.
    Would you agree that in addition to the authorization, in 
order to begin to address the problems that exist out there and 
to begin to solve some of those problems there has to be an 
increase in funding?
    Mr. Boyd. What we have been trying to do over the last 
several years, and certainly for myself over the last several 
years since I have taken this position, is to work with tribal 
organizations, regional housing authorities, tribal leaders 
throughout the Country, to develop strategies for leveraging 
the funds that we do have available, and funds that Congress 
has provided to us.
    I think we have been fairly successful in taking those 
funds that we have to leverage those funds to get more 
interest, State housing finance agencies, as an example, from 
the Federal Home Loan Bank, using low-income housing tax 
credits. Especially through the Title VI program, and certainly 
through our 184 program, we have been able to leverage a lot of 
our resources. I think there has been some very good success 
stories throughout Indian Country in that leveraging, noting 
that we have to deal with the funds that we have available.
    The Chairman. But my question was, at a time when we have 
90,000 either homeless or ill-housed and we have about 40 
percent of the on-reservation housing is considered inadequate. 
We have had testimony here, one tribal chair said his two 
daughters have a used trailer house that was moved from 
Michigan to South Dakota, with no indoor toilet. They have a 
wood stove in their living room vented out with a pipe through 
the living room window. These are Third World conditions.
    I look at the decreasing funding request. The 
Administration request is $627 million in this budget request. 
Seven years ago, it was $648 million. Then we are told that if 
we go above the President's budget request that he will veto 
legislation.
    So you see the fix we are in. Would you not agree that no 
matter that you do a good job, and I will submit that we 
appreciate the work you are doing with tribes, but would you 
not agree that the witnesses that will follow you that describe 
the need to adequately fund the structuring of NAHASDA is also 
a critical need.
    Mr. Boyd. Certainly, we do recognize that need, and 
certainly I think we would gladly receive any kind of 
assistance we could get.
    The Chairman. Senator Murkowski?
    Senator Murkowski. Thanks, Mr. Chairman.
    When we talk about the funding component and the need to 
increase the funding, but in addition to the funding, I am also 
hearing from many of my tribal housing authorities that they 
are seeking some additional flexibility within the housing 
program itself.
    Section 208 of this draft bill allows the grant recipients 
to use up to 15 percent of its NAHASDA funds to accomplish the 
goal of getting more housing out there, more affordable 
housing. It gives them a little bit more flexibility. What is 
HUD's position on this?
    Mr. Boyd. Well, we have taken note of that. We are not 
quite sure yet. Again, going back to my earlier statement with 
regard to talking with Assistant Secretary Cabrera, we would 
like a little bit more time to formulate a more firm position 
on that section.
    Senator Murkowski. I have a couple of other questions that 
are very specific as to sections of the bill. So what I will do 
is I will present those to you for written response. But we 
would look forward to closer scrutiny, a greater analysis, and 
constructive help with some of these sections. If there is 
going to be opposition of if you feel that we can enhance it in 
some way, we would certainly appreciate hearing that.
    The bill also authorizes tribal reserve accounts, which 
allow the tribal housing entities to set aside a limited amount 
of their funding, which can be helpful in bridging the funding 
gaps or anything unforeseen that may arise. What is HUD's view, 
then, on these reserve accounts?
    Mr. Boyd. What we have noted is that in some cases we know 
that the tribes can already do that. I think what we are going 
to do internally is to reach back out to find out from tribes 
why they really--we don't quite understand why this is really 
needed at this point.
    Senator Murkowski. The bigger question would be if there 
are these unforeseen circumstances that come about, what is it 
that we can do to perhaps mitigate them or anticipate them so 
that it is not this surprise, if you will, at the time when you 
need the funding most.
    Mr. Boyd. Well, in our review of our current statute and 
regulations, this is already permissible. In other words, 
tribes can already do this. So we are trying to figure out why 
this is really needed. We would be glad to discuss this more 
with the Committee and staff and try to work through this until 
Mr. Cabrera gets back into the office next week.
    Senator Murkowski. The other issue that I would like to 
bring up with you this morning is the push, rightfully so, to 
hire tribal members to complete the housing construction 
projects, keeping the money within the boundaries of their 
communities. Tribes are saying that HUD is interpreting Indian 
preference as not incorporating tribal preference. Can you tell 
me what HUD's interpretation is of the tribal preference laws?
    Mr. Boyd. Right now, we agree with the Indian Self-
Determination Act. We recognize that if tribes can set up their 
own Indian preference, then we defer to them.
    Senator Murkowski. So you would work to encourage that so 
that local members of the tribes are involved with the 
construction projects, so that it is the win-win. You get the 
housing and you get employment at the same time.
    Mr. Boyd. We note that a lot of tribes already have their 
own Indian preference, their own tribal preference laws.
    Senator Murkowski. There is a tribal preference provision 
in the draft bill. I don't know if you are prepared to give me 
a comment in terms of your support of that. It is something I 
would like to know, specifically what HUD's position on that 
draft provision is.
    Mr. Boyd. OK. Can I let you know that after we talk to the 
Assistant Secretary?
    Senator Murkowski. All right.
    Thank you, Mr. Chairman.
    Mr. Boyd. Thank you.
    The Chairman. Senator Tester?
    Senator Tester. Thank you, Mr. Boyd. I appreciate your 
testimony.
    I, too, want to reiterate the fact that your perspective on 
the discussion draft is critically important. For us to move 
forward in a timely manner, it is important to know what your 
position is.
    I just have a couple of real quick questions. The over-
income statement, is there a level that determines over-income, 
a dollar amount?
    Mr. Boyd. I believe it is 80 percent of median.
    Senator Tester. Eighty percent of median income for that 
State?
    Mr. Boyd. Yes. Well, it is across the Country.
    Senator Tester. Across the Country?
    Mr. Boyd. Yes, across the Country for that region.
    Senator Tester. OK. OK, 80 percent of median income. OK. So 
the question would become, I mean, you are talking about folks 
who are essential to a community.
    Mr. Boyd. Yes, sir.
    Senator Tester. I think it is a good recruitment tool. I 
guess the question is, when I visualize the housing needs in 
Indian Country, and with the dollar amount going down, it is 
kind of a two-edged sword. I want to make sure that you have 
good doctors, policemen, teachers, all those kind of things, 
but on the other side of the coin you have people who are 
living in Third World conditions that need to be addressed, and 
I don't want money to be taken away from those kind of needs 
and put into folks who have more resources to develop their own 
housing.
    What is your perspective on that?
    Mr. Boyd. Well, this really allows the tribe to make the 
decision. I think it would be good under self-determination, to 
demonstrate further self-determination. This really allows the 
tribe to make that decision on their own. It is not mandatory, 
but it does open the door. I know that we have had some 
situations where a professional Native American family that is 
essential to the community had to leave or work outside the 
community. We just thought that this would be a way to provide 
the tribe with more options.
    Senator Tester. Yes, I think it is good. Overall when I 
look at it, I think it is good. I just think that combined with 
the decreases in funding that are especially painful when you 
take into account inflation, there is a concern that. That is 
all. I think it is a step in the right direction.
    The affordability period or useful life--what exactly are 
we talking about? I mean, are we talking about a period of 
time? I didn't track it very well.
    Mr. Boyd. The key that we are trying to accomplish here 
with regard to useful life, it is usually 20 years.
    Senator Tester. Twenty?
    Mr. Boyd. Twenty. But also what we want to do is be able to 
allow with our recommendations, so that children can inherit 
these properties from their families.
    Senator Tester. OK. Thank you. I don't mean that to be 
critical. I just was curious. I just didn't know.
    The last question I have dovetails on what the Chairman was 
asking about, about the $627 million, and you said that you 
were being very successful in leveraging funds. Could you give 
me any kind of idea of how many private dollar funds are being 
leveraged with these monies?
    Section 184 is Federal dollars. Right? And there are 
probably some other Federal dollars. I am talking about, are 
you able to leverage outside money, outside of the Federal 
Government?
    Mr. Boyd. I can give you a couple of examples, Senator. 
Certainly, I think one of them would be the Passamaquoddy Tribe 
in New England that through their Title VI program leveraged 
about $1.5 million.
    Senator Tester. And how many bucks were put in to do that? 
Is it a one to one match?
    Mr. Boyd. No. They bought in on a total project. It was a 
housing development project. The total amount of the project 
was $8 million, so they were able to leverage the Title VI 
program and that contribution, with total cost of the housing 
project was $8 million. Some of it was low-income housing tax 
credits. Some of it may come from State housing finance 
agencies.
    Another tribe used our Title VI for bridge financing. They 
also then brought in additional funds. As I mentioned earlier, 
a number of tribes really are beginning to look at Title VI, 
especially Title VI, and of course 184, and look at other 
opportunities for leveraging, including from the State housing 
finance agencies.
    As a matter of fact, we were just in Alaska recently and 
had some really good meetings with the State housing finance 
agency. They are doing a very good job in reaching out to the 
Alaska Native community, as well as some of the other States in 
the Lower 48.
    Senator Tester. I applaud those efforts to leverage. Make 
no mistake about it. I think it is good. I know we could get 
into truly the weeds on this thing. I would really be 
interested in knowing what kind of percentages you are talking 
about overall, of the $627 million, what is that leveraged up 
to?
    Mr. Boyd. I don't have the total number right now, but I 
would be glad to provide that to you.
    Senator Tester. That would be good. I am just curious.
    Thank you very much. I appreciate your testimony.
    Mr. Boyd. You are welcome.
    The Chairman. Mr. Boyd, thank you very much for being here. 
Let me ask again that as soon as you are able to do a full 
review of this discussion draft, we would ask you to do that. 
We do want to move ahead with the reauthorization. We want your 
consultation and your advice as we proceed.
    So I appreciate your being here today, and look forward to 
further visits on the discussion draft.
    Mr. Boyd. Thank you.
    The Chairman. Thank you very much.
    The second panel today will be the Honorable David ``Doc'' 
Brien, Chairman of the Turtle Mountain Band of Chippewa Indians 
in Belcourt, North Dakota; the Honorable Waldo Walker, Chairman 
of the Washoe Tribe of Nevada and California, from 
Gardnerville, Nevada. He would be accompanied by Mr. Raymond 
Gonzales, Executive Director of that tribe.
    Ms. Aneva Yazzie, CEO of Navajo Nation Housing Authority at 
Window Rock, Arizona; Ms. Teri Nutter, Executive Director, 
Copper River Basin Regional Housing Authority in Glennallen, 
Alaska. Teri Nutter is from Alaska, accompanied by Mr. Dan 
Duame, Executive Director of that housing authority; and Mr. 
Marty Shuravloff, the Chairman of the National American Indian 
Housing Council here in Washington, D.C.
    I want to thank all of you for being here today. We will 
appreciate your testimony as a contribution to development of a 
reauthorization of this important housing legislation.
    We will begin with the Honorable David ``Doc'' Brien, 
Chairman of the Turtle Mountain Band of the Chippewa Indian 
Tribe in Belcourt, North Dakota. As I have told other 
witnesses, the entire statements submitted by all of you will 
be made a part of the permanent record, and you may summarize.
    Chairman Brien, thank you very much.

  STATEMENT OF DAVID BRIEN, CHAIRMAN, TURTLE MOUNTAIN BAND OF 
                        CHIPPEWA INDIANS

    Mr. Brien. Good morning, Chairman Dorgan and distinguished 
Members of the Committee, Senator, Vice Chair Murkowski, 
Senator Tester. My name is David Brien. I am the Chairman of 
the Turtle Mountain Band of Chippewa Indians of North Dakota. 
We are a woodlands and prairie buffalo hunting people, and many 
of our members are children of the Great Lakes fur trade.
    Thank you for inviting me to testify on Indian housing 
needs and the reauthorization of NAHASDA. It is a great honor. 
As you listen to our testimony today, please remember and keep 
in mind the children and the elders.
    I would like to start by thanking Senator Dorgan of North 
Dakota for his leadership on Indian housing. Our reservation in 
North Dakota is home to approximately 14,000 resident members; 
30,000 tribal members nationwide. We strongly support the 
reauthorization of the Native American Housing Assistance and 
Self-Determination Act. This Act has been very important in 
allowing the tribe considerable self-determination in providing 
housing for its low-income members.
    Tribal members living in their homelands throughout the 
Country suffer every day from the most serious unmet housing 
needs in the Nation, third-world conditions. NAHASDA has been 
employed effectively to deliver Federal funds that may be 
leveraged with other funding financing. However, the continuing 
failure to appropriate sufficient funding for NAHASDA has 
proven to be a real roadblock in solving the often deplorable 
housing conditions we face on our reservations and in Indian 
Country.
    Since the beginning of NAHASDA 10 years ago, there has been 
virtually no significant increase in the funding level, and 
this must be corrected. Our tribe and many others strongly 
support increased funding in appropriations for NAHASDA. The 
funding level should be at least $1 billion. That is supported 
by research conducted by national organizations and the tribes 
themselves.
    The Committee's proposal to reauthorize NAHASDA contains 
some important and thoughtful changes that will help make 
NAHASDA a more effective program. In the time available, I 
would like to highlight a few of these issues, endorsements and 
recommendations.
    Number one, some of the new proposed provisions appear to 
possibly expand the Indian housing block grant beyond serving 
low-income tribal members. We recommend and request that these 
proposals be revised to ensure that only low-income tribal 
members are primarily served by NAHASDA.
    Number two, we applaud that the bill directs the bill 
directs the Comptroller General to conduct a study of new 
alternative data sources for the Indian housing block grant 
formula over the next 2 years. This study, done in consultation 
with the tribes, will help correct the failures of past 
negotiated rulemaking and HUD-mandated allocation rules that 
direct the use of race-based census data.
    It is important that we find a way to allocate Indian 
housing block grant funds based on tribal membership 
population. NAHASDA is not and should not become a race-based 
program. The use of race-based and individual self-
identification data such as the U.S. Census conflicts with 
NAHASDA's statutory requirements and is not an appropriate way 
to allocate tribal housing funds.
    Three, we strongly endorse the inclusion of the new self- 
determination activities demonstration program that would give 
tribes greater flexibility to administer a portion of their 
Indian housing block grant. In order for this program to be 
effective, we recommend that the stated percentage limit of 
grant funds be extended to approximately 20 percent.
    Four, and finally, we hope that nest year Congress will be 
able to address changes to the 30 percent rule on tenant and 
home buyer payments. Tribes need more flexibility to develop 
their own, our own, standards and methods for payment in order 
to ensure that our low-income tribal members are only required 
to pay a fair and affordable amount for their homes.
    I want to thank the Committee for its interest in pursuing 
the reauthorization of NAHASDA. With your permission, I would 
like to submit supplemental written testimony in the next week 
to outline our comprehensive recommendations on these issues.
    We are a little people in proud Indian Country. Help us. 
Remember our children, the little ones, and remember our 
elders.
    [The prepared statement and supplementary information of 
Mr. Brien follow:]

 Prepared Statement of David Brien, Chairman, Turtle Mountain Band of 
                            Chippewa Indians
    Good morning, Chairman Dorgan and distinguished Members of the 
Committee. My name is David Brien and I am the Chairman of the Turtle 
Mountain Band of Chippewa Indians. Thank you for inviting me to testify 
on Indian housing needs and the re-authorization of NAHASDA.
    I would like to start by thanking Chairman Dorgan for his 
leadership on Indian housing issues.
    Our reservation in northern North Dakota is home to 14,500 members. 
We strongly support the re-authorization of the Native American Housing 
Assistance and Self-Determination Act (NAHASDA). This Act has been very 
important in allowing the tribe considerable self-determination in 
providing housing for its low-income members.
    Tribal members living in their homelands throughout this country 
suffer everyday from the most serious unmet housing needs in the 
Nation. NAHASDA has been employed effectively to deliver Federal funds 
that may be leveraged with other funding and financing. However, the 
continuing failure to appropriate sufficient funding for NAHASDA has 
proved to be a real roadblock in solving the often deplorable housing 
conditions we face on our reservations. Since the beginning of NAHASDA 
10 years ago, there has been virtually no significant increase in the 
funding level and this must be corrected. Our Tribe and many others 
strongly support increased funding in appropriations for NAHASDA. The 
funding level should be at least $1 billion as supported by research 
conducted by national organizations and the tribes themselves.
    The Committee's proposal to re-authorize NAHASDA contains some 
important and thoughtful changes that will help make NAHASDA a more 
effective program. In the time available today, I would like to 
highlight just a few of these issues, endorsements, and 
recommendations:

        1. Some of the new proposed provisions appear to possibly 
        expand the Indian Housing Block Grant program beyond serving 
        just low-income tribal members. We recommend and request that 
        these proposals be revised to ensure that only low-income 
        tribal members are primarily served by NAHASDA.

        2. We applaud that the bill directs the Comptroller General to 
        conduct a study of new alternative data sources for the Indian 
        Housing Block Grant formula over the next 2 years. This study, 
        done in consultation with tribes, will help correct the 
        failures of past negotiated rulemaking and HUD-mandated 
        allocation rules that direct the use of race-based Census data. 
        It is important that we find a way to allocate Indian Housing 
        Block Grant funds based on tribal membership populations. 
        NAHASDA is not, and should not become, a raced-based program. 
        Use of race-based, and individual self-identification data, 
        such as the U.S. Census, conflicts with NAHASDA's statutory 
        requirements and is not an appropriate way to allocate tribal 
        housing funds.

        3. We strongly endorse the inclusion of the new Self-Determined 
        Activities Demonstration program that would give tribes greater 
        flexibility to administer a portion of their Indian Housing 
        Block Grant. In order for this program to be effective, we 
        recommend that the stated percentage limit of grant funds be 
        extended to 20 percent.

        4. We hope that next year, Congress will be able to address 
        changes to the 30-percent rule on tenant and homebuyer 
        payments. Tribes need more flexibility to develop their own 
        standards and methods for payment in order to ensure that low-
        income tribal members are only required to pay a fair and 
        affordable amount for their homes.

    I want to again thank the Committee for its interest in pursuing 
the reauthorization of NAHASDA, and with your permission, I would like 
to submit supplemental written testimony in the next week to outline 
our comprehensive recommendations on these issues.
    I would be happy to answer any questions you might have.
                                 ______
                                 
                       Supplementary Information
    Our reservation in northern North Dakota is home to 14,500 members. 
We strongly support the re-authorization of the Native American Housing 
Assistance and Self-Determination Act (NAHASDA). This Act has been very 
important in allowing the tribe considerable self-determination in 
providing housing for its low-income members.
    Tribal members living in their homelands throughout this country 
suffer everyday from the most serious unmet housing needs in the 
Nation. NAHASDA has been employed effectively to deliver Federal funds 
that may be leveraged with other funding and financing. However, the 
continuing failure to appropriate sufficient funding for NAHASDA has 
proved to be a real roadblock in solving the often deplorable housing 
conditions we face on our reservations. Since the beginning of NAHASDA 
10 years ago, there has been virtually no significant increase in the 
funding level and this must be corrected. Our Tribe and many others 
strongly support increased funding in appropriations for NAHASDA. The 
funding level should be at least $1 billion as supported by research 
conducted by national organizations and the tribes themselves.
    1. Some of the new proposed provisions appear to possibly expand 
the Indian Housing Block Grant program beyond serving just low-income 
tribal members. We recommend and request that these proposals be 
revised to ensure that only low-income tribal members are primarily 
served by NAHASDA. Specifically, we request that the Committee re-
examine it proposed amendment to Section 205 of NAHASDA, which, as 
currently proposed, would exempt housing from not only the useful life 
restrictions, but also the initial affordability requirements currently 
contained in Section 205(a)(2) (25 USC 4135 (a)(2)).
    2. We applaud that the bill directs the Comptroller General to 
conduct a study of new alternative data sources for the Indian Housing 
Block Grant formula over the next 2 years. This study, done in 
consultation with tribes, will help correct the failures of past 
negotiated rulemaking and HUD-mandated allocation rules that direct the 
use of race-based Census data. It is important that we find a way to 
allocate Indian Housing Block Grant funds based on tribal membership 
populations. NAHASDA is not, and should not become, a raced-based 
program. Use of race-based, and individual self-identification data, 
such as the U.S. Census, conflicts with NAHASDA's statutory 
requirements and is not an appropriate way to allocate tribal housing 
funds. The question presented really concerns the following issues:

        1) Which individuals within a recipient's formula area can be 
        counted as American Indians and Alaska Natives for purposes of 
        determining each recipient's appropriate share of Native 
        American Housing Assistance and Self-Determination Act 
        (``NAHASDA'') funding, and

        2) What data set or sets should be used to identify the number 
        of these eligible American Indian and Alaska Natives within 
        each recipient's formula area.

    In general, NAHASDA recipients can only serve enrolled tribal 
members, and certain Alaska Natives, with their NAHASDA funds. 
<SUP>i</SUP> NAHASDA is a statute unique from other general public 
housing statutes by virtue of its provision of resources purely for 
members of Indian tribes. Any data set, whether prepared by the Census 
Bureau or otherwise, that fails to identify and count actual tribal 
members within a recipient's formula area should not be used in 
determining the allocation of NAHASDA grant funds. <SUP>ii</SUP> This 
position promotes tribal self-determination because it recognizes 
tribes' unique political status and relationship with the Federal 
Government. It affirms tribes' right to set and implement their own 
standards for tribal membership, and enhances tribal self-determination 
by endorsing, rather than ignoring, tribally identified membership 
lists as the basis for provision of NAHASDA funds.
    The decennial census data is an inadequate data set for HUD to use 
in determining the number of tribal members within NAHASDA formula 
areas because the census fails to distinguish recognized tribal members 
who are entitled to receive NAHASDA funds from self-identifying non-
tribal members who are not entitled to receive these funds. The census 
specifically disregards the unique political status of recognized 
tribes and its use in the formula process is fundamentally flawed. 
Continuing to use the decennial census undermines tribal self-
determination because the census (1) removes enrollment status from the 
list of criteria for identifying American Indian and Alaska Natives and 
implements the OMB definition of AIAN which includes Canadian and 
Central and South American indigenous populations within the scope of 
the definition of American Indian and Alaska Native, <SUP>iii</SUP> (2) 
falsely characterizes a person's membership in a tribe as a racial 
classification rather than a representation of their political status 
as a member of a sovereign nation, <SUP>iv</SUP> and (3) collects and 
compiles population figures that directly conflict with tribally-
determined enrollment lists. <SUP>v</SUP> Furthermore, the census 
arbitrarily inflates some recipients' formula numbers and increases 
their NAHASDA funding by counting populations that cannot be served. If 
HUD continues to allocate NAHASDA funds to recipients for ineligible 
non-tribal members, many NAHASDA recipients will continue to lose an 
ever-growing portion of their rightful share of the limited NAHASDA 
funding.
    Census questions are simply not designed to capture or verify the 
tribal enrollment data that is necessary to facilitate the fair and 
targeted grant allocations required by NAHASDA. In order to produce the 
information necessary to establish an accurate count of tribal members 
within recipients' formula areas, alternate data sets that are designed 
and implemented by tribes in accordance with their individual 
membership standards can and must be developed. These tribally 
generated data sets will serve to both respect tribal self-
determination and ensure that NAHASDA funds are fairly divided amongst 
all tribes and their tribal members.
    3. We strongly endorse the inclusion of the new Self-Determined 
Activities Demonstration program that would give tribes greater 
flexibility to administer a portion of their Indian Housing Block 
Grant. In order for this program to be effective, we recommend that the 
stated percentage limit of grant funds be extended to 20 percent.
    3. We hope that next year, Congress will be able to address changes 
to the 30-percent rule on tenant and homebuyer payments. Tribes need 
more flexibility to develop their own standards and methods for payment 
in order to ensure that low-income tribal members are only required to 
pay a fair and affordable amount for their homes.
    While the central purpose of the Native American Housing Assistance 
and Self-Determination Act (NAHASDA) is to enhance the ability of 
tribes to serve the housing needs of their members, imposition of the 
requirement that tribes can charge rent no higher than 30-percent of a 
tenant's income (the ``30-percent rule'') undermines that purpose, and 
puts tribes in a uniquely disadvantageous position. NAHASDA's 30 
Percent Rule, which has as its source the so-called ``Brooke 
Amendment'' in the public housing field, affects Indian tribes and 
tribally designated housing entities differently and more harshly than 
does the Brooke Amendment itself for public housing authorities. \1\ 
This is because, unlike public housing authorities, (1) tribes are 
sovereign nations with the ability and power of self-governance, and 
(2) tribes and TDHEs do not receive Federal subsidies which compensate 
PHAs for losses they incur by being forced to rent their units at 
below-market rates. Thus, while it appears that the original intent of 
including the 30-percent rule in NAHASDA was to subject Indian and 
public housing to the same requirements, imposition of the 30-percent 
rule has, in fact, resulted in Indian tribes being treated differently, 
and unfairly so, from their public housing counterparts.
---------------------------------------------------------------------------
    \1\ Cf. 24 C.F.R. Sections 1000.110(e)(1) and 1000.130 (2006).
---------------------------------------------------------------------------
    NAHASDA found that ``the Congress, through treaties, statutes, and 
the general course of dealing with Indian tribes, has assumed a trust 
responsibility for the protection and preservation of Indian tribes and 
for working with tribes and their members to improve their housing 
conditions and socioeconomic status so that they are able to take 
greater responsibility for their own economic condition.'' 
Unfortunately, Congress disregarded that responsibility by limiting the 
amount of income that tribes could receive from their housing projects, 
forcing these tribes to use housing development funds to cover the 
resultant deficit. As a result, and unlike public housing, the 30-
percent rule under NAHASDA became a classic case of an unfunded 
mandate.
    Unfortunately, when Congress enacted NAHASDA, it imposed the first 
part of the Brooke Amendment (the 30-percent rule), but omitted the 
second, equally important part--an operating subsidy to compensate for 
the impact of the rule.
    Under NAHASDA, a single block grant \2\ is provided to tribes to 
cover all of their housing needs, both operation of existing units and 
development of new homes. By forcing tribes to spend a large portion of 
their funds administering the 30-percent rule and subsidizing existing 
units, the 3O-percent rule serves to directly reduce the amount of new 
Indian housing that can be built. Tribes, in other words, are forced to 
eat their seed corn.
---------------------------------------------------------------------------
    \2\ It is important to note that the total amount of funds 
appropriated for NAHASDA in each of the last 10 years has never been 
increased and is often less than the original FY 1997 appropriation 
which began the program. This funding has not even kept pace with 
inflation, so it is no wonder that tribes must spend an ever larger 
portion of their grants on subsidizing existing units.
---------------------------------------------------------------------------
    The 30 Percent Rule also imposes other operational burdens which 
require tribes to spend increasingly larger amounts of their grant 
moneys on administrative tasks, rather than using those funds to 
provide housing assistance. The rule, for example, mandates tribes to 
periodically ``recertify'' tenant incomes. If tribes had the option to 
alternatively use fair market rents as a ceiling, tribes would be able 
to develop alternative rent and payment formulas which would not 
require the re-certification of incomes. This would save tribes funds 
which could be applied to more productive activities such as 
constructing more units, improving routine maintenance or adequately 
funding counseling programs. A recent survey shows that TDHEs with 1937 
Housing Act units would save on average 62 percent of their housing 
occupancy staff costs if they could elect to use fair market rents as a 
cap and replace the current recertification with either a flat rent 
schedule or some other payment formula that was less difficult to 
apply.
    For these reasons, the Turtle Mountain Tribe supports discussion 
and exploration of an amendment to NAHASDA to change the 30-percent 
rule requirements.
    I want to again thank the Committee for its interest in pursuing 
the reauthorization of NAHASDA, and for allowing me to submit this 
supplemental written testimony.
ENDNOTES
    <SUP>i</SUP> Under NAHASDA, the term ``Indian'' means ``any person 
who is a member of an Indian tribe.'' NAHASDA, 25 U.S.C. Sec. 4101 et 
seq, at Sec. 9. An ``Indian Tribe'' is defined as a ``tribe that is a 
federally recognized tribe or State recognized tribe.'' NAHASDA, Sec.  
12(A). The term ``Federally Recognized Tribe'' is further defined as 
``any Indian tribe, band, nation, or other organized group or community 
of Indians, including any Alaska Native village or regional or village 
corporation as defined in or established pursuant to the Alaska Native 
Claims Settlement Act, that is recognized as eligible for the special 
programs and services provided by the United States to Indians because 
of their status as Indians pursuant to the Indian Self-Determination 
and Education Assistance Act of 1975.'' NAHASDA, Sec.  12(B). The term 
``State Recognized Tribe is defined as ``any tribe, band, nation 
pueblo, village, or community (I) that has been recognized as an Indian 
tribe by any State; and (II) for which an Indian Housing Authority has, 
before the effective date under section 705, entered into a contract 
with the Secretary pursuant to the United States Housing Act of 1937 
for such housing for Indian families and has received funding pursuant 
to such contract within the 5-year period ending upon such effective 
date.'' NAHASDA, Sec. 12(C).

    <SUP>ii</SUP> While we do not support the use of either ``single-
race'' or ``multi-race'' census data for the purpose of counting tribal 
members and allocating NAHASDA funds to recipients, we would note that 
a study conducted by the Indian and Native American Employment and 
Training Coalition demonstrated that ``a very significant portion of 
those identifying as Indians [on the 2000 Census] who also said they 
belonged to another race were persons who had identified as non-Indians 
in the 1990 Census. The counts for the Indian ``alone'' population seem 
more consistent with the 1990 data than do counts which include the 
``multi-racial'' component of the Indian population.'' The study 
further explained that ``Census Bureau research indicates that a 
substantial majority of persons identifying as ``multi-racial'' Indians 
choose a non-Indian racial category when asked to list just one race'' 
and ``that only 1 percent of the Indian ``multi-racial'' population 
lived in Federal reservation or trust land areas.'' ``Counting Indians 
in the 2000 Census; Impact of the Multiple Race Response Option,'' 
Indian and Native American Employment and Training Coalition (January 
16, 2004). Therefore, with respect to the two flawed census data sets, 
``single-race'' census data and ``multi-race'' census data, the use of 
``multi-race'' census data clearly results in the greatest departure 
from NAHASDA's requirement that only eligible tribal members be served.

    <SUP>iii</SUP> See ``Revisions to the Standards for the 
Classification of Federal Data on Race and Ethnicity,'' Office of 
Management and Budget, 62 Federal Register 210, pp. 58781-58790 
(October 30, 1997); and ``2000 Census of Populations and Housing, 
Summary Social, Economic and Housing Characteristics, Selected 
Appendixes: 2000, Appendix B: Definitions of Subject Characteristics,'' 
pp. B-38-39, U.S. Census Bureau (June 2003), at http:/www.census.gov/
population/cen2000/phc-2-a-B.pdf. Since its decision to expand the 
definition of `American Indian and Alaska Native' in 1997 over the 
objections of several tribal governments, OMB has failed to correct its 
error by excluding indigenous peoples from Canada, Central and South 
America from that definition and the resulting census tabulation of 
AIAN, despite the fact that the Census Bureau received and forwarded to 
OMB official recommendations from the Census Bureau's AIAN Advisory 
Committee recommending this change. See ``Recommendations of the Census 
Advisory Committee on the American Indian and Alaska Native (AIAN) 
Populations Made as a Result of the Meeting on November 8-9, 2004,'' 
AIAN Advisory Committee, at http://www.census.gov/cac/www/pdf/aian-
resp-nov-2004.pdf; and ``Recommendations of the Census Advisory 
Committee on the American Indian and Alaska Native (AIAN) Populations 
Made as a Result of the Meeting on May 5-7, 2004,'' AIAN Advisory 
Committee, at http://www.census.gov/cac/www/pdf/may04-recommend-
aian.pdf. As a result, non-tribal members from North, Central and South 
America will continue to be counted as AIAN in the 2010 Decennial 
Census and factored into some recipients' NAHASDA allocations to the 
detriment of many others until approximately 2023 (when the 2020 
Decennial Census data will likely be finally compiled and implemented) 
or longer if the census ``race'' questions and AIAN definition are left 
substantively unchanged for the 2020 Decennial Census.
    <SUP>iv</SUP> We would further point out the fact that Census 
Bureau has refused to even explore the option of adding a separate 
census question that recognizes `American Indian' as a distinct 
political status separate from the purely racial categories identified 
by the census, despite the fact that it received this specific 
recommendation from the AIAN Advisory Committee. See ``Recommendations 
of the Census Advisory Committee on the American Indian and Alaska 
Native (AIAN) Populations Made as a Result of the Meeting on October 1-
3, 2003,'' AIAN Advisory Committee.
    <SUP>v</SUP> The explanation provided for the Census Bureau's 
recent endorsement and effective selection of a form of the 2010 Census 
race questions that does not specifically address whether or not an 
individual self-identifying as `AIAN' is an enrolled member of a tribe 
illustrates the relative lack of significance it places on obtaining 
enrollment information vital to administering tribal programs and the 
near impossibility of getting the Bureau to change its decision at this 
stage. See ``Content Determination for the 2010 Decennial Census 
Program'' (Distributed for the November 30, 2006 Special Joint Meeting 
of the U.S. Census Bureau Advisory Committees), U.S. Census Bureau, at 
http://www.census.gov/cac/www/pdf/content-determination.pdf.

    The Chairman. Chairman Brien, thank you very, very much. I 
appreciate that.
    I might just mention that we had a spiritual leader on your 
reservation who recently passed away. I recall that when his 
wife passed away some while ago, the circumstances of his life 
and the terribly inadequate housing, this wonderful elder was 
living in unbelievably dilapidated housing, which was not 
terribly unusual on the reservation. It demonstrated for me 
once again how much effort needs to be made to try to improve 
the housing stock on the reservation.
    Francis Crow was a remarkable man, and all of us will miss 
him.
    Mr. Brien. Yes.
    The Chairman. Let us hear from the Honorable Waldo Walker, 
who is Chairman of the Washoe Tribe of Nevada and California. 
You are from Gardnerville, Nevada. Mr. Walker, welcome. Thank 
you very much.

STATEMENT OF WALDO WALKER, CHAIRMAN, WASHOE TRIBE OF NEVADA AND 
    CALIFORNIA; ACCOMPANIED BY RAYMOND GONZALES, EXECUTIVE 
                    DIRECTOR, WASHOE TRIBAL 
                       HOUSING AUTHORITY

    Mr. Walker. Thank you, Chairman Dorgan.
    Good morning. Thank you for affording me the opportunity to 
testify before you today. It is an honor for me to be here 
today in front of this Committee which has done tremendous 
things for Indian Country and the Indian people as a whole.
    As Chairman of the Washoe Tribe, it is a great honor to 
come before you. It is encouraging to see the deep interest 
this Committee has demonstrated in the reauthorization of the 
Native American Housing Assistance and Self-Determination Act, 
NAHASDA.
    It is an evolving bill, as you see by the previous 
testimony. It affects little tribes and giant tribes. We are 
all in the same fight together. The reauthorization of the 
NAHASDA Act is crucial to the tribes and the Native American 
people throughout the Nation. There are a few points that I 
think we really need to look at, and as Committee members, I 
think need to be pointed out.
    In Title II, Section 203(g), we strongly support the de 
minimis procurement, which is the exemption minimum of $5,000. 
Currently, HUD requires price quotes on every item purchased. 
This will allow us not to be bound up by the petty paperwork 
that we always get caught in. We have to fill out tons and tons 
of paperwork for a minimal cost of small amount purchase 
prices.
    Title VII, Section 701, technical training assistance. We 
want to encourage onsite technical assistance through smaller 
tribes at the local level. It would definitely help us save 
costs on travel and bring the focus down to the levels of each 
tribe's specifics.
    Also, Section 301 of the allocation formula. We would like 
as the Nevada Housing Association, believe that the sovereign 
right should be the tribe's and that they should be able to 
choose their data sets and negotiate with other tribes 
regarding the formula. The costs associated with the survey 
would also be best utilized by adding it back into the NAHASDA 
block grant funding.
    The minimal funding. It is a request to this Committee to 
seriously consider minimal funding for small tribes. I know 
that the formula is sometimes difficult. It doesn't give a lot 
of funding to the smaller tribes, and that is one of the things 
that I believe really is a big challenge to NAHASDA.
    Again, I would like to thank you, Mr. Chairman, and the 
Committee members for the opportunity to testify before you 
today, and for spending the time and energy to reauthorize the 
NAHASDA Act. The passage of this crucial bill will only 
continue to benefit Indian Country, supporting the past efforts 
to alleviate the severe shortage of decent, safe and sanitary 
housing for Indian people throughout the Nation, and continue 
to support the innovation and services and programs as allowed 
under this bill.
    And finally, I want to take the opportunity to ask for your 
support on amendments and issues that affect the small tribes 
throughout Nevada and California.
    Thank you.
    [The prepared statement of Mr. Walker follows:]

 Prepared Statement of Waldo Walker, Chairman, Washoe Tribe of Nevada 
 and California; accompanied by Raymond Gonzales, Executive Director, 
                    Washoe Tribal Housing Authority
Introduction
    Good morning and thank you for affording me the opportunity to 
testify before you today. Chairman Dorgan and Committee Members it is 
an honor to be before this Committee today who's work has done 
tremendous things for Indian Country and Indian people. My name is 
Waldo Walker and I am the Chairman of the Washoe Tribe. It is 
encouraging to see the deep interest this committee has demonstrated to 
the reauthorization of Native American Housing Assistance Self-
Determination Act of 1996 (``NAHASDA'').
    NAHASDA has brought flexibility to Tribes to create programs 
specific to their local needs and motivate innovative ways to provide 
housing services to their people. As a Tribal Leader it is encouraging 
to witness the attention and hard work of the committee members to 
reauthorize a bill that benefits the lives of so many Native Americans 
throughout the country. I applaud your efforts.
    NAHASDA is an evolving bill that requires continued improvement to 
provide a refined tool for Indian Tribes to use to provide decent, 
safe, sanitary, and quality homes for their people.
Census Data
    Over the last several years Tribes have been debating and 
maneuvering politically over the Multi-Race vs. Single Race. Regardless 
of the debate, the forum for this discussion and the place for a 
solution to be agreed upon is the Negotiating Rule Making Committee. 
Data collection or creations of data sets are a Tribal Leadership issue 
and have been negotiated by Tribal Leaders during the 1997 Negotiated 
Rule Making process and again in 2004. The original Negotiated Rule 
Making Committee has provided a safeguard by establishing in 24 CFR 
1000.306, ``How can the IHBG formula be modified'', the measurable and 
verifiable data that affects the formula to be addressed every 5 years. 
If there is recognized need for a change then that change shall not be 
legislated, but shall be negotiated by the Tribes through the 
Negotiated Rule Making process. This process is in place for Tribes to 
have government to government negotiations to reach an agreement that 
would be in the best interest of all Tribes.
    The stance of the Washoe Tribe and the Nevada and California Indian 
Housing Association is that it is the sovereign right of the Tribes to 
choose their data sets. This includes census data from multi-race or 
single race. In addition, if a Tribe chooses to challenge the census by 
utilizing data collected from their own data collection system then 
they can submit the data to U.S. Department of Housing and Urban 
Development (HUD) under the census challenge. In addition we oppose the 
creation and implementation of a universal data survey system. This 
system has a number of faults and would create an enormous burden on 
limited staff and resources for small Tribes to execute. The large cost 
estimated to implement the universal data survey system would be best 
utilized to increase NAHASDA appropriations.
    The choice to utilize census data was exactly that, a choice, a 
choice agreed upon by Tribes through the negotiating rulemaking process 
to utilize a data collection system that was currently available. The 
choice wasn't to base a program on race, but the choice was to utilize 
a data set that was currently available without having to spend 
valuable resources and time to create another data system to collect 
population data. National American Indian Housing Council (NAIHC) 
actually took time to form a subcommittee to address this issue to no 
avail. The conclusion to the exercise is that it is the Tribe's choice 
to choose a data system or tool they determine best represents their 
Tribe. This is done through the Negotiating Rule Making process. This 
matter should not be legislated for any reason, but left to the Tribe's 
to negotiate in good faith to solve the issue surrounding the data 
collection system utilized for funding distribution.
Minimal Funding
    On behalf of the 135 small Tribes in Nevada and California it is my 
duty to continue to advocate for an adequate minimum funding level 
under NAHASDA. This would provide every Tribe with sufficient funds to 
provide meaningful housing assistance to its low income members and to 
comply with the administrative requirements of NAHASDA. Within the 
states of Nevada and California the total development cost (TDC) rates 
to build a single family home have doubled over the last several years. 
Specifically for the Washoe Tribe the current total development cost is 
$257,943 per home. However, the NAHASDA block grant has not increased 
nor has kept up with inflation further inhibiting small tribes to 
provide decent, sanitary homes for their tribal members.
Appropriations
    As testimony is being given today it is my duty to mention the need 
for increased appropriations. While this committee does not determine 
the appropriation levels for the NAHASDA Block Grant it is vital for 
the record to reflect the dire need to increase appropriations. Since 
the 2000 Census the American Indian population doubled, but funding for 
the NAHASDA Block Grant did not reflect such a drastic increase in 
American Indian population. Increasing the appropriations will provide 
the opportunity for Tribes to take full advantage of the intent of 
NAHASDA for capacity building, creating innovative ways to leverage 
funds and the establishment of new programs to alleviate the waiting 
lists each Tribe has and the increase in American Indians throughout 
the Nation as demonstrated in the 2000 Census. Currently the majority 
of funding goes toward supporting the current 37 housing act stock and 
provides a minimal assistance for innovative programs, services and 
most important new housing.
    In addition, we hope that the Senate will consider reestablishing 
funding the National American Indian Housing Council. NAIHC has been 
instrumental in providing free technical assistance to Tribes and 
Housing Authorities. Prior to the cut in funding technical assistance 
was being provided at a local level, which was a huge benefit for small 
Tribes who have limited funds to run their program let alone send staff 
to trainings. The current environment requires travel to attend needed 
trainings which puts a drain on their limited resources. It is our hope 
that the Senate would recognize the need for continued training to 
Tribes and Housing Professionals for them to provide excellent services 
and local oversight of programs.
Deficiencies of Existing Formula
    The latest negotiated rule-making process revealed a significant 
deficiency in NAHASDA that affects the funding formula. The Current 
Assisted Stock component of the NAHASDA funding formula includes houses 
constructed under the 1937 Housing Act as one factor in allocating 
funds. However, it does not include houses constructed under NAHASDA. 
This perpetuates an anomalous situation where tribes with pre-NAHASDA 
houses receive funds to maintain those houses, but tribes which have 
constructed houses with funds provided under NAHASDA do not receive 
such critical assistance. It is proposed to put NAHASDA funded houses 
on the same footing as pre-NAHASDA houses with respect to maintenance 
and to assure that all federally developed and assisted housing are 
adequately maintained.
NAHASDA Re-Authorization
    Chairman we are here today to discuss the reauthorization of the 
Native American Housing Assistance and Self-Determination Act of 1996. 
Since originally being signed into law, the Act has been amended four 
times. Each amendment has been intended to improve the efficiency of 
the Act in providing quality, affordable housing to Indian Country. 
However, there are further refinements to the Act that are being 
introduced to make it an even more powerful tool for providing the 
needed support to Indian Country housing. Nevada and California Indian 
Housing Association supports the amendments presented by NAIHC.
    It is important to point specific support for the amendment ``De 
Minimis Exemption for Procurement of Goods and Services.'' Procurement 
for each single item under $5,000 is cumbersome and strains staff time 
particularly with small Tribes who have limited staff and funding on 
hand. Current procurement requirements results in spending time and 
energy far above the savings cost of small procurement purchases. In 
the states of Nevada and California we have Tribes located in very 
remote areas with several Tribes who have several communities they 
serve located from 20 miles to 100 miles away from each other. Due to 
the remote and rural areas the Tribes reside in there are limited or no 
resources in the communities where work is being completed. It works 
against the school of thought for savings when a staff person must 
travel back to the main community to procure for a small item to fix a 
problem that is 20-100 miles away. When in reality they could travel to 
the closest hardware store solving a problem in a short time as opposed 
to several hours spent on travel, phone and pick up time for the small 
items to be purchased through current procurement standards. The Senate 
Committee on Indian Affairs is strongly encouraged to support this 
amendment to assist Tribes and Housing Authorities to run a more 
efficient program.
    The proposed amendment to Sec. 301 Allocation Formula, (2) 
``Study'' (A) and (B) is opposed by the Washoe Tribe and Nevada and 
California Indian Housing Association as mentioned above in the section 
Census Data. This is action that needs to take place in the Negotiated 
Rule Making Committee. It is the Tribes sovereign right to choose data 
sets and negotiate which data sets will be utilized for funding 
distribution or take advantage of the current process through the 
Census Challenge. This is an exercise that needs to be provided through 
the process of Government-to-Government negotiations.
Conclusion
    Thank you again Chairman and Committee members for the opportunity 
to testify before you today and for spending the time and energy to 
reauthorize the Native American Housing and Self-Determination Act. The 
passage of this crucial bill will only continue to benefit Indian 
County supporting the past efforts to alleviate the severe shortage of 
decent, safe and sanitary housing for Indian people throughout the 
Nation and continue to support innovation in services and programs as 
allowed under this bill. Finally, I want to take the opportunity to ask 
for your support of amendments and issues that affect the small Tribes 
throughout Nevada and California.

    The Chairman. Chairman Walker, thank you very much.
    You are accompanied by Raymond Gonzales. Would you identify 
yourself? Is Mr. Gonzales here? Thank you for joining us, Mr. 
Gonzales. We appreciate that.
    Chairman Brien, I mentioned Francis Crow. Of course, I 
meant Francis Cree. I want to make sure the record is correct. 
He was a wonderful spiritual leader of your tribe.
    We are next going to hear from Ms. Aneva Yazzie the CEO of 
the Navajo Housing Authority, Window Rock, Arizona. You may 
proceed.

  STATEMENT OF ANEVA J. YAZZIE, CEO, NAVAJO HOUSING AUTHORITY

    Ms. Yazzie. Good morning, Chairman Dorgan and Members of 
the Committee. Thank you for this opportunity to address you on 
the topic of reauthorization of the Native American Housing 
Assistance and Self-Determination Act.
    President Joe Shirley was not able to be here with you 
today, but he asked me to extend his greetings and his 
appreciation for your work and your dedication to the cause of 
tribal sovereignty, and your support of native families across 
the Country.
    While I have provided the Committee with more extensive 
comments in my written testimony, I would like to provide a 
summary of those comments, and I am happy to answer any 
questions you may have.
    As Chief Executive Officer of the Navajo Housing Authority, 
I am charged with operating the largest tribal housing 
organization in the Country. The Navajo Housing Authority 
currently manages 8,000 units of housing, approximately 7,000 
in rental units, and 1,000 in home ownership and lease-to-own 
units.
    The Navajo Housing Authority enjoys a good working 
relationship with both our local HUD Office of Native American 
Programs and with the National ONAP office. We want to thank 
both Deputy Assistant Secretary Rodger Boyd and Assistant 
Secretary Orlando Cabrera for their support and guidance, 
especially in the last year.
    NAHASDA is a good law, but the funding for NAHASDA is too 
little for its real promise to be realized. As costs increase 
without an increase in Federal funding, a higher share of 
NAHASDA funds go to support the existing housing stock. This 
leaves little room for the innovation and new opportunities 
envisioned by the members of the Committee and tribal leaders 
who crafted this program a decade ago.
    The most contentious issue facing Indian housing in the 
last few years has been the use of census data to determine 
funding allocations. This is just not a debate about how funds 
are allocated. It is fundamental to NAHASDA and to all Indian 
programs. Tribal housing must remain for tribal members, and 
therefore tribal members should be counted when determining 
funding allocation.
    I applaud you, Chairman Dorgan, for addressing this issue. 
To date, no consensus has been reached on a solution, but the 
provision in the discussion draft to study what alternative 
data sources exist is a major leap forward. It demonstrates 
that the Committee understands that there is a real problem in 
the current system and moves us toward a solution. Thank you, 
Chairman, for your courage.
    Amending NAHASDA Title VI to include the eligible 
activities allowed under the Section 108 program gives tribes 
access to the benefits of a program long used by urban 
communities. This would increase investment in economic 
development and infrastructure in communities that desperate 
need such investment without increasing Federal appropriations.
    Making this definitional change would also increase the 
utilization of Title VI, the credit subsidy, which often goes 
unused and is a regular target of rescissions. The specific 
language in the discussion draft does not appear to meet with 
what we believe was the Committee's intent in this regard, and 
we will work with your staff to address this.
    The Navajo Nation is encouraged by the inclusion of the 
self- determined housing activities program. Any effort to 
increase self-determination is welcome, and we appreciate the 
move to broaden the eligible activities under this proposal. 
Housing cannot be built without infrastructure. Existing water 
and wastewater facilities are hopelessly overburdened and in 
many areas of our land do not exist at all.
    In Indian Country, lack of infrastructure is an affordable 
housing problem. The exclusion of developer fees from 
consideration as program income and low-income housing tax 
credit projects is an excellent proposal. Tax credits are a 
small, but growing portion of total housing development in 
Indian Country, but one that must be supported.
    One change in Federal law we would like the Committee to 
consider would be the elimination of the prohibition from using 
Indian Health Service funds in concert with NAHASDA funds. 
Tribes should determine where to spend scarce resources and if 
a tribe would like to use IHS funds for water and wastewater in 
conjunction with a NAHASDA-funded housing project, that should 
be the tribe's decision.
    Mr. Chairman, the discussion draft is good legislation, and 
I appreciate the opportunity to comment on it. You and your 
staff have done an excellent job and the recommendations I 
offered are simply ways to make a good bill better. I look 
forward to working with you as this bill moves forward, and I 
am happy to answer any questions you or the members of the 
Committee may have.
    Thank you.
    [The prepared statement of Ms. Yazzie follows:]

  Prepared Statement of Aneva J. Yazzie, CEO, Navajo Housing Authority
    Chairman Dorgan and Members of the Committee, thank you for this 
opportunity to address you on the topic of reauthorization of the 
Native American Housing Assistance and Self-Determination Act. 
President Joe Shirley was not able to be here with you today, but he 
asked me to extend his greetings and his appreciation for your work and 
your dedication to the cause of Indian sovereignty and your support of 
Native families across the country.
    As Chief Executive Officer of the Navajo Housing Authority, I am 
charged with operating the largest Tribal Housing organization in the 
country. The Navajo Nation spreads across three states: Arizona, New 
Mexico and Utah. The Nation covers nearly 27,000 square miles, making 
it larger than the State of West Virginia. The Navajo Housing Authority 
manages 8,000 units of housing (approximately 7,000 rental units and 
1,000 home ownership and lease-to-own units) and is the largest 
developer of housing in this vast area.
    Working in concert with other agencies of the Navajo Nation, the 
Navajo Housing Authority has made great strides in improving the lives 
of tribal members. I am lucky to have the support of a tremendous 
staff, both in our headquarters in Window Rock, and throughout the 
Navajo Nation. I am also blessed by the support of a strong Board and 
tribal government, including President Shirley and his staff and the 
Navajo Nation Council.
    In the last decade, the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) has been a useful tool in our Nation's 
work. The hallmarks of the law--self-determination and Tribal decision-
making--are what make it successful.
    The law is not without its challenges and for the past decade 
tribes have worked with HUD to implement the law in the most effective 
and efficient manner possible. The Navajo Housing Authority enjoys a 
good working relationship both with our local HUD Office of Native 
American Program and with the National ONAP Office. We thank both 
Deputy Assistant Rodger Boyd and Assistant Secretary Orlando Cabrera 
for their support and guidance, especially in the last year.
Census Data
    The most contentious issue facing Indian housing in the last few 
years has been the use of Census data to determine funding allocations. 
NHA has been heavily involved in this discussion because we believe 
this is not just a debate about how funds are allocated; it is 
fundamental to NAHASDA and to all Indian programs. Tribal housing must 
remain for tribal members and tribal members should be counted when 
determining funding allocations.
    NAHASDA is a tribal program, not an ethnic program. Indian programs 
are not created or supported by this Congress to benefit a race. Indian 
programs, NAHASDA included, exist because of the unique relationship 
between the Federal Government and Indian tribes. Treaties, statutes 
and Supreme Court decisions have all demonstrated, clarified and 
supported this notion. Individuals benefit from these programs because 
they are members of a tribe, not because they belong to a particular 
ethnic group. If we abandon that fundamental principle, we jeopardize 
the very existence of such programs.
    When the original NAHASDA negotiated rule-making committee met to 
draft regulations, Census data was chosen because it was considered an 
unbiased source of data to quantify the need for housing in tribal 
service areas. However, the architects of the law did not foresee the 
changes that would occur in the 2000 Census, nor did they assume Census 
data would be used for 10 years.
    The original data used was from the 1990 Census, in which 
individuals chose one race. In the collection of data for the 2000 
Census, individuals had the option of selecting one or more races by 
which to identify themselves. This is what is now called ``multi-race'' 
Census data.
    Clearly, Census data is not the correct way to assess housing need 
for tribal members. NAHASDA is a tribal program, not an ethnic program, 
and counting those who identify themselves as Indian regardless of 
whether they are tribal members is wrong and dangerous. If we are 
distributing funds to tribal members, we should count tribal members.
    We support the use of tribal enrollment data, not Census data, to 
determine need under NAHASDA. Until terms of verifiable enrollment data 
can be agreed upon by Federal Government and tribal representatives, 
NHA urges a return to the use of single-race Census data because, while 
imperfect, it is the better approximation of tribal enrollment numbers.
    I applaud you, Chairman Dorgan, for addressing this issue. To date, 
no consensus has been reached on a solution, but the provision in the 
discussion draft, to study what alternative data sources exist, is a 
leap forward. It demonstrates that the Committee understands that there 
is a real problem in the current system and moves us toward a solution. 
Thank you, Mr. Chairman, for your courage.
Appropriations
    The major failing of NAHASDA has not been caused by the law itself, 
but by the lack of sufficient funding. NAHASDA is a good law, but the 
funding for NAHASDA is too low for its real promise to be realized. As 
costs increase without an increase in Federal funding, a higher share 
of NAHASDA funds go to support the existing housing stock. This leaves 
little room for the innovation and new opportunities envisioned by the 
members of this Committee and Tribal leaders who crafted this program a 
decade ago.
    In addition to funding for the block grant, we would like to ask 
that the Congress reconsider its decision to eliminate funding for the 
National American Indian Housing Council. Providing for a well-trained 
group of professionals at the tribal level will ensure the success of 
NAHASDA, which clearly benefits families throughout Indian Country.
Proposed NAHASDA Amendments
    The proposed amendment broadening the scope of the Title VI Loan 
Guarantee program holds tremendous possibilities for Indian Country. 
When originally created by the drafters of NAHASDA, Title VI was seen 
as a means to increase large-scale development of housing in Indian 
communities while also introducing the use of financing mechanisms used 
in non-Indian areas. Title VI has not, however, lived up to its 
original promise and continues to be underutilized.
    Title VI is underutilized for two basic reasons. First, there has 
been a lack of effective education about the program. We are pleased to 
see that the draft bill addresses that by including a requirement that 
HUD provides training on the use of Title VI guarantees and we support 
the provision. Second, the activities allowed under the current Title 
VI program are so limited that most activities, no matter how 
beneficial to local tribal communities, cannot generate enough income 
to cover debt service on the guaranteed loan or make bond payments.
    Title VI is based on the very successful Section 108 program, which 
allows direct recipients of Community Development Block Grant dollars 
to borrow or issue bonded debt for up to five times their annual 
formula allocation to support the functions otherwise allowed under 
CDBG. Tribal governments are statutorily prohibited from utilizing the 
Section 108 program because tribes compete for one national set-aside, 
known as ICDBG. Without a formula allocation under CDBG, tribes will 
never be able to access this vital program.
    Amending Title VI to include the eligible activities allowed under 
Section 108 gives tribes access to the benefits of a program long used 
by urban communities. This would have the effect of increasing 
investment in economic development and infrastructure in communities 
desperately in need of such investment without increasing Federal 
appropriations. Making this definitional change would also increase 
utilization of Title VI, the credit subsidy for which often goes unused 
and is a regular target of rescissions.
    The advantage of this change is that while it increases the 
investment in infrastructure and economic development, it does not 
reduce the available funds for housing because the block grant's 
eligible activities remain unchanged. This would allow tribes to use 
funds from outside sources--banks or bond investors--to support 
desperately needed development in Indian Country. The only way funds 
meant for housing could go to economic development is if the borrowing, 
which HUD itself must individually approve, results in a claim against 
the U.S. Government. In the history of the Section 108 program we are 
unaware of any time in which HUD has withheld CDBG grant funds.
    The potential benefit of pumping hundreds of millions of dollars 
into economic development and infrastructure without an increase in 
appropriations far outweighs the hypothetical possibility that HUD 
might choose to withhold funds from a few tribes because of poor 
oversight on their part. Effective education and diligent oversight can 
prevent this.
    The specific language in the discussion draft does not appear to 
meet what we believe was the Committee's intent in this regard. The 
language would create a demonstration program in which 50 percent of 
guarantee authority could be used for activities allowed under Title I 
of NAHASDA, as opposed to Title VI. However, after reviewing the 
eligible activities, it appears that these activities are the same. We 
believe that to meet the Committee's goals the Section 108 eligible 
activities should be referenced, not Title I of NAHASDA.
    The Navajo Nation is encouraged by the inclusion of the Self-
Determined Housing Activities program. NAHASDA's findings and purposes 
establish that self-determination and self-governance are to be the 
hallmarks of the law:

        Federal assistance to meet these responsibilities should be 
        provided in a manner that recognizes the right of Indian self-
        determination and tribal self-governance by making such 
        assistance available directly to the Indian tribes or tribally 
        designated entities under authorities similar to those accorded 
        Indian tribes in [the Indian Self-Determination and Educational 
        Assistance Act].

    Any effort to increase self-determination is welcome and we 
appreciate the move to broaden the eligible activities under this 
proposal. Housing cannot be built without infrastructure. Existing 
water and waste water facilities are hopelessly overburdened and in 
many areas of our land do not exist at all. In some areas of Indian 
Country units of housing sit vacant because they have no electricity or 
lack water and sewer hook ups. In Indian country, lack of 
infrastructure is an affordable housing problem.
    The exclusion of developer fees from consideration as program 
income in low-income housing tax credit projects is an excellent 
proposal. The developer fees from tax credit projects are the result of 
risks taken by a tribe and for developers constitute a form of profit. 
We should reward tribes who undertake these activities themselves. 
Anything this Committee, or your colleagues at the Finance Committee, 
can do to encourage tribes to use the tax credit program is welcome. 
Tax credits are a small but growing portion of total housing 
development in Indian Country, but one that must be supported.
    Other provisions in the bill, including the eligibility of 
essential Indian families in housing and the inclusion of police 
officers, will go far to strengthening our communities. Likewise, the 
de minimis exemption from procurement rules when a NAHASDA recipient is 
spending less than $5,000 will alleviate administrative burdens. The 
savings one might find through a competitive bid process for such small 
amounts is far outweighed by the amount of time and effort that must be 
put in to solicit and review the bids. Saving $100 on supplies is not 
worth it if it took 30 staff hours to accomplish that, time that could 
be better spent elsewhere and if accounted for would actually be shown 
to cost more money than the supposed ``savings.''
    The Navajo Nation continues to believe that the tribes themselves 
should be able to set rents for tenants. Local Tribal officials, like 
all Members of this Committee, must answer to their constituents and 
would not charge excessive rents. However, the continued imposition of 
the 30 percent maximum rent, a variant of the so-called ``Brooke 
Amendment'' from the public housing and Section programs--without even 
an exemption for utility costs--is contrary to the concept of tribal 
self-governance. We understand, however, that we have more work to do 
as advocates for this position before the Congress will make such a 
change. We hope the Committee will consider this change in future 
legislation.
    Some language in the bill would appear to be a response to recent 
Federal court cases concerning the conveyance of low-income housing 
units and the legality of funding them under the ``formula current 
assisted stock'' portion of the NAHASDA block grant. However, such 
broad language as is included in the Discussion Draft is not consistent 
with the realities of managing housing in Indian Country. In the case 
of the Navajo Nation, units that are under contract terms for ``Mutual 
Help'' units should be conveyed to families cannot be conveyed because 
of the failure of the Bureau of Indian Affairs to provide Title Status 
Reports. Without these TSRs, units cannot be conveyed. This means 
Navajo is being criticized and threatened with a reduction in Federal 
funds by one Federal agency because of the failures of another Federal 
agency. To codify a specific time period would eliminate funding for 
units that NHA is still required to operate and maintain. This language 
should be re-written if it is to remain.
    One change in Federal law we would like the Committee to consider 
would be the elimination of the prohibition from using Indian Health 
Service funds in concert with NAHASDA funds. While this would not be an 
amendment to NAHASDA--this prohibition is included in appropriations 
legislation on an annual basis--there is a proposal to make this 
prohibition permanent through the reauthorization of the Indian Health 
Care Act. The concern that the lack of available funds means we should 
keep these funding streams separate may be well-intended, but it flies 
in the face of Tribal self-determination. Tribes should determine where 
to spend scarce resources and if a tribe would like to use IHS funds 
for water and waste-water in conjunction with a NAHASDA-funded housing 
project that should be the tribe's decision.
Conclusion
    Mr. Chairman, the discussion draft is good legislation and I 
appreciate the opportunity to comment on it. You and your staff have 
done an excellent job and the recommendations I have offered are simply 
ways to make a good bill better. I look forward to working with you as 
this bill moves forward and I am happy to answer any questions you or 
other Members of the Committee may have.

    The Chairman. Ms. Yazzie, thank you very much for your 
testimony.
    Next, we will hear from Ms. Teri Nutter, the Executive 
Director of the Copper River Basin Regional Housing Authority 
in Glennallen, Alaska. She is accompanied by Mr. Dan Duame, who 
is the Executive Director. Mr. Duame, would you identify 
yourself? Thank you very much. We appreciate your being here.
    Ms. Nutter, why don't you proceed?

         STATEMENT OF TERI NUTTER, EXECUTIVE DIRECTOR, 
COPPER RIVER BASIN HOUSING AUTHORITY; ACCOMPANIED BY DAN DUAME, 
      EXECUTIVE DIRECTOR OF THE ALEUTIAN HOUSING AUTHORITY

    Ms. Nutter. Good morning, Chairman Dorgan, Vice Chair 
Murkowski, and Members of the Committee. I am pleased to appear 
before you today and thank you for the opportunity to provide 
comments on the NAHASDA reauthorization.
    Let me start by expressing our profound sadness over the 
recent loss of Senator Craig Thomas, who as you well know was a 
good friend of Indian Country, and a distinguished Member of 
this Committee. Our sadness is tempered by the selection of our 
own Senator Lisa Murkowski to be Vice Chair of the Committee, 
and we are pleased that she has accepted this important 
leadership position and that she will serve Alaska and all of 
Indian Country honorably and well.
    My colleague and I are here today to represent our 
statewide native housing association, the Association of Alaska 
Housing Authorities. The association consists of 14 Alaska 
Native regional housing authorities created by State statute to 
meet the housing needs in our respective regions. Collectively, 
we are the tribally designated housing entities for 
approximately 75 percent of Alaska's 229 tribes and administer 
approximately $72 million of the $98 million of NAHASDA funding 
that comes to Alaska.
    Mr. Chairman, I would like to take a moment to express some 
of the unique service delivery challenges and obstacles we face 
in Alaska. Alaska's vastness almost goes without saying, but 
really needs to be experienced to be appreciated. Every year, 
thousands of tourists visit Alaska.
    Tourists often fly out from Anchorage to one of our remote 
villages. It can be an eye-opening and rich cultural 
experience, but I wonder how many stop to think how did these 
houses get out here? I and my colleagues can tell you: only 
with great difficulty and very careful planning and 
considerable expense.
    Our high cost of construction is a result of many factors, 
including the lack of basic statewide road and transportation 
systems. In most of our regions and villages, the only method 
of getting construction material to the job site is by barge, 
or where necessary, by air freight.
    Barging to many of our villages requires coordinating with 
shipping out of Seattle and many do not have regularly 
scheduled services. Barges which are unable to make scheduled 
landing can cost up to $10,000 a day while they may wait out 
bad weather conditions. Barging to many villages can only be 
done during the short window period between breakup and freeze-
up.
    Another critical need and often lacking is the availability 
of basic heavy equipment such as forklifts, backhoes, dozers or 
even in some cases pickup trucks for hauling the basic tools 
and personnel. Many projects have been built with nothing more 
than four-wheelers.
    Another significant challenge is the rapidly escalating 
high cost of energy. This is having a rippling effect on all 
aspects of business: the cost of construction, the cost of 
operating and maintaining our existing units, and home 
ownership. Heating fuel and gasoline can be as high as $5 to $8 
a gallon.
    I am sure by now you are beginning to get the picture that 
we are trying to paint for you.
    We are doing our best to stretch our NAHASDA dollars under 
these difficult circumstances and the Senate draft is a good 
step in assisting us in this effort. We consider many of the 
proposed amendments to be significant improvements which 
promote both efficiency and flexibility. A few examples that we 
support and find very helpful include Section 203, which 
includes the carryover and the $5,000 procurement exemption; 
the expanded definition of ``housing-related community 
development;'' the inclusion of operation and maintenance of 
NAHASDA units as affordable housing activities; and the 
strengthening of the intent language of Section 27 in terms of 
recognizing the right of tribes and TDHEs to operate programs 
in a manner that is more in line with Indian self-determination 
and tribal self-governance provisions of Public Law 93-638.
    Notwithstanding these positive aspects of the draft bill, 
the reality is given the recent funding trends, we are being 
asked to do more with less. If this trend is not reversed, 
which we hope this Committee will consider, there are further 
amendments that can improve our service delivery. We appreciate 
the apparent underlying intent of subtitle B, Self-Determined 
Housing Activities for Tribal Communities, but we have serious 
reservations about its implementation. It does not represent 
the type of self-determination or self- governance service 
delivery model that has become the standard in Alaska and which 
we would like to see expand in a more meaningful way in the 
final bill.
    Monitoring and compliance--we urge you to seriously 
reconsider the inclusion of NAIHC's proposal in this area. The 
lack of revisions in this section unfortunately leaves us with 
a bill that in our review remains far too HUD-centric, rather 
than tribal-centric.
    Finally, we are greatly concerned about the proposed 
amendment in Section 302 which calls for an alternative data 
set feasibility study. We strongly support the continued use of 
census data in Alaska and the resolution of formula allocation 
issues through continued tribal negotiation.
    In conclusion, on behalf of the Association of Alaska 
Housing Authorities and many tribal beneficiaries that we have 
the privilege to serve, I sincerely thank the Chairman and 
members for this chance to share our views on this important 
piece of legislation. We look forward to continuing our 
dialogue and offering our support as the bill moves toward 
successful passage.
    Thank you.
    [The prepared statement of Ms. Nutter follows:]

  Prepared Statement of Teri Nutter, Executive Director, Copper River 
 Basin Housing Authority; accompanied by Dan Duame, Executive Director 
                   of the Aleutian Housing Authority

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Ms. Nutter, thank you very much.
    Finally today, we will hear from Mr. Marty Shuravloff, the 
Chairman of the National American Indian Housing Council here 
in Washington, D.C.
    Mr. Shuravloff, thank you for your leadership and we look 
forward to hearing your testimony.

  STATEMENT OF MARTY SHURAVLOFF, CHAIRMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Mr. Shuravloff. Thank you.
    Good morning, Chairman Dorgan, Vice Chairwoman Murkowski, 
Members of the Committee. Thank you for inviting me to testify 
to present our views on the discussion draft for the Native 
American Housing Assistance and Self-Determination 
Reauthorization Act of 2007.
    Indian Country needs NAHASDA reauthorized because it 
directly affects our health and welfare. We appreciate your 
adamant support, Mr. Chairman and Members of the Committee, to 
focus on what this law means to native people, providing 
desperately needed tools to our communities so we can continue 
to improve the housing conditions that our people face every 
day.
    NAHASDA meets these housing needs by increasing tribal 
decisionmaking to design and run their own programs and by 
making Federal housing assistance available directly to the 
Indian tribes or tribally designated housing entities. Prior to 
NAHASDA, an estimated 2,000 units a year were built. In 
NAHASDA's first year alone, over 6,000 units were built.
    We believe it is in the spirit of Indian self-determination 
that has made NAHASDA a success and hope this is emphasized 
during the coming deliberations on its reauthorization.
    On behalf of our membership, we have been working with your 
able and diligent Committee staff on proposed amendments to the 
law to achieve the objectives of the Act and make the law work 
better for us. We appreciate the clarification of the 
definition of ``program income'' so that our projects' startup 
costs are not counted against us.
    We look forward to the expansion of our ability to 
establish reserve funds so we can prepare for short 
construction seasons. We appreciate Congress's recognition of 
our authority to make and follow our own laws for employment 
and contract preferences for our own tribal members.
    Our ability to carry over funds will reduce the costs of 
operation and provide much-needed streamlining so we can focus 
more on service delivery. We applaud and thank the Committee 
for its efforts to enhance and further Indian self-
determination in NAHASDA.
    Under the proposed subtitle B, we can see how a tribe or 
tribally designated housing entity might set aside a portion of 
its block grant to devote to housing activities with long- term 
planning and decreased HUD reporting and oversight during the 
upcoming 5-year period.
    We especially appreciate that the infrastructure is 
included in eligible activities. Infrastructure goes hand in 
hand with housing development and its inclusion will enhance 
tribal flexibility to use their funds for all stages of 
development.
    Our members have urged the council to work with our sister 
organizations, the National Indian Health Board and the 
National Congress of American Indians, to ensure that tribes 
have access to adequate resources for the development of 
infrastructure, especially water and wastewater facilities. 
This collaboration has already begun.
    As an Alaska Native, I am all too aware of the significant 
effects on tribal communities from inadequate and unsafe 
housing. Dilapidated houses lead to weak performance in school, 
poor health, and contribute to hopelessness that few Americans 
witness as part of their daily lives. We ask you to amend, 
extend and reauthorize NAHASDA to address the daunting housing 
challenges facing Indian tribes and people.
    I would like to thank the Committee for its interest in 
pursuing the reauthorization of NAHASDA and for its support of 
American Indians, Alaska Natives, and Native Hawaiian people.
    I would be happy to answer any questions the Committee 
might have.
    [The prepared statement of Mr. Shuravloff follows:]

  Prepared Statement of Marty Shuravloff, Chairman, National American 
                         Indian Housing Council

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Mr. Shuravloff, thank you very much.
    I would like to ask a general question. I think, Mr. 
Shuravloff, you have referred to it in your testimony, and that 
is the need for infrastructure. I have seen this in some of the 
circumstances with respect to North Dakota tribes. You find a 
structure--moving a structure, perhaps. We had structures moved 
from military installations where the structures were to have 
been demolished, but instead they were moved to Indian 
reservations, but there wasn't the infrastructure or the 
funding for the infrastructure--the foundation, the water, and 
so on. So the tribes had difficulty using that housing stock. 
Is that a common problem? If so, what can we do about that?
    Mr. Shuravloff. Mr. Chairman, the issue we are facing today 
is as we put new housing in with HUD dollars, the health 
service is restricted from coming in and supplying those houses 
with water and sewer infrastructure. That is one of the 
challenges we are facing today.
    During my testimony, I mentioned we are meeting with the 
Indian Health Board as well as NCAI to try and address that 
problem and see if we can come up with some sort of fix on how 
we might be able to start partnering to make better use of our 
funds.
    The Chairman. Have other tribes had similar problems with 
respect to infrastructure?
    Ms. Yazzie. Yes. For Navajo, if I may, Navajo is about the 
size of the State of West Virginia, so right off you are 
looking at the remoteness factor. It truly lends to the cost of 
infrastructure, just being exorbitant. That is the costliest 
component of development. So we are really faced with the 
extreme lack of funding with respect to even building housing 
for our tribal members.
    The Chairman. Chairman Brien, can you describe the housing 
stock on your reservation? You are a reservation that has less 
land base than some others do, with a fairly sizable 
population. Can you describe the current housing stock on your 
reservation?
    Mr. Brien. Yes. Actually, one second--Jim, can I get that 
document I gave you? The book? I have all the data on one page 
that he has.
    Just to respond to the infrastructure, in a normal housing 
environment, you are just purchasing the home. In the Indian 
housing environment, you are purchasing the home, but you also 
have to pay for road, water, sewer and electricity at the same 
time that you are buying the home. So it adds a 30 percent or 
40 percent increase in cost to the home owner.
    So in Indian Country, we are simultaneously paying for a 
home, but also installing infrastructure as well. So that is 
very difficult for a tribal family to gain housing under those 
circumstances.
    Very quickly, the data for Turtle Mountain is that the 
population growth on our reservation is the major driver of the 
local housing crisis, as our birth rate remains high and 
members of the tribe return to the reservation in growing 
numbers.
    There is no currently in Turtle Mountain no habitable 
rental units available on the whole reservation; 20 percent of 
the housing units on our reservation are in need of 
replacement, and 25 percent are in need of major repairs. A 
minimum of 20 percent of our households on the reservation are 
living in overcrowded conditions as tribal members take in 
relatives and friends who cannot find housing.
    The supply of suitable and available land for new homes is 
limited by lack of infrastructure, and of course the legal 
complexities of allotted lands, tribal trusts, individual trust 
land. It is very tough to get financing on tribal land through 
regular banks.
    There is a need for, on our reservation, at least 635 
additional housing units on Turtle Mountain and 165 units in 
the remainder of Rolette County by 2010.
    The Chairman. Is there overcrowding of existing stock? Is 
it a very substantial problem?
    Mr. Brien. Oh, yes, very much so. Yes. A minimum 20 percent 
of our homes are overcrowded.
    The Chairman. Ms. Nutter, is overcrowding similarly a 
problem in the Alaska Native American housing stock?
    Ms. Nutter. Yes, it is, especially in remote villages of 
Alaska. When we have a lack of housing or inadequate housing, 
we have families that are housing with other families, and 
generations of families.
    The Chairman. When we had a hearing talking about education 
in this Committee, we had someone describe, for example, a 
young girl in grade school who is living in a relatively small 
home with 23 people living in the home, and asked the question: 
What kind of opportunity to do homework in a quiet environment 
exists for that young girl? The answer is not much of an 
environment to do homework.
    More importantly, it described as well the dramatic 
overcrowding in a small home, I assume in circumstances where 
relatives and friends come in and are given an opportunity to 
have some shelter because other shelter doesn't exist. That, I 
think, describes in a pretty dramatic way the serious problem 
of lack of housing stock.
    I have to go to the Capitol for a leadership meeting on 
appropriations bills, so I am going to turn to the Vice Chair, 
Senator Murkowski, who will ask questions, and then Senator 
Tester will follow as well.
    Let me as I have to depart for this meeting thank those of 
you who have come in many case a very long way to sit at the 
table and give us your advice about this legislation. This 
Committee commits to doing everything we can to move a 
reauthorization bill and one that incorporates the best 
suggestions that you have been able to offer as well.
    Thank you very much.
    Senator Murkowski?
    Senator Murkowski. [presiding.] Thank you, Mr. Chairman.
    I would like to follow up with you, Ms. Nutter, discussing 
the issue of the quality of housing that we face. You mentioned 
the overcrowding, which we recognize in so many of our small 
villages, as you point out. You have multiple families, 
generations of families, all residing in the same very small, 
usually very troubled housing.
    We also recognize that there are aspects that we are facing 
that relate to the mold levels in the houses and how that 
affects the health of those that are living within the homes. 
We do have a provision in this draft legislation that in fact 
does relate to NAHASDA recipients' ability to use funds for 
mold remediation purposes, which we know will be very important 
to us in the State.
    We have been working over the past couple of years out of 
my office to make sure that when we are talking about housing 
issues in so many of our villages, that it is not just the 
housing for the residents, but also recognizing that when many 
of the professionals come to town--the schoolteacher, the 
physician's assistant--that in fact they have no place to live. 
It is not as if there is any available housing for rent or 
purchase. It simply doesn't exist.
    So we have been working on an initiative to provide for 
teacher housing in so many of the villages that simply have no 
accommodation. It is not a situation of finding something nice 
or even something affordable. It is a question of finding 
anything at all.
    When I took the Secretary of Education to Alaska a couple 
of years ago, we went to Savoonga and the principal of the 
school was living in the broom closet. The special education 
teacher was living in her classroom. These are the conditions 
that we face in unfortunately too many of our villages.
    I want to ask you, Ms. Nutter, the draft bill has a 
provision that would allow for essential families, or non-low-
income professionals such as I have described the teachers, to 
receive NAHASDA funds. Out in your area, do you have a demand 
for special housing, whether it is for teachers, nurses, other 
non-low-income professionals in the area at Glennallen, and the 
Copper River area in general?
    Ms. Nutter. Yes, we do. Oftentimes, our health needs, our 
educational needs in most of our communities are overlooked 
because we do not have adequate housing to house professionals. 
We have a difficult time in bringing professionals out that are 
qualified, let alone our own native tribal members that have 
the qualifications and are qualified that are not low income, 
to keep them in our community to continue to provide service to 
our people, because of the lack of housing.
    Senator Murkowski. It is tough to attract people if there 
is really no place to live at the end of your work day, and 
that unfortunately is a reality.
    Marty, you had mentioned in your testimony the carryover 
funding and indicated that it has the potential to reduce costs 
of operation and provide for some streamlining. I think you 
said it would allow you to focus more on the service delivery. 
Tell me how you achieve these benefits, then, through the 
ability to provide for the carryover funding?
    Mr. Shuravloff. Well, Senator, I think the biggest or the 
most positive aspect of it is as we deal with this issue today, 
we have the ability to put our reserves aside for approximately 
2 years to obligate those funds. For most small Indian tribes 
or TDHEs, the amount of money you set aside in 2 years still is 
never enough to build units. So you really have to be thinking 
four or 5 years out, and have the ability to put the reserves 
together that you need to put together, and plan the 
developments that you need to plan.
    Having the ability to build those reserves is really a key 
on being able to put new units out there.
    Senator Murkowski. So it just enables better planning.
    Mr. Shuravloff. Better planning, and being able to put the 
funds together to actually build units, rather than trying to 
just have enough money to rehab what is out there.
    Senator Murkowski. Mr. Walker, both you and Ms. Yazzie 
discussed the census data issue. You have indicated that you 
believe that the forum for solving the census data issue should 
be the negotiated rulemaking committee. We know that this 
census data issue has been around for several years now. It 
seems that the big tribes and small tribes really haven't been 
able to come to agreement in terms of how to solve this issue. 
Do you think that it is possible for the big tribes and the 
small tribes to reach consensus on the census data under the 
negotiated rulemaking process? And then Ms. Yazzie, I would ask 
you to respond as well.
    Mr. Walker?
    Mr. Walker. I believe we all can come to a consensus. I 
think that as we move forward to 2010, I believe that a lot of 
the consultations with the census, with all of the tribes, 
really has to happen. I think we all can come to a favorable 
conclusion on how we are going to approach that data set.
    Senator Murkowski. Ms. Yazzie, do you agree?
    Ms. Yazzie. I also agree. I think taking the avenues in 
your discussion draft is a way to move forward, and looking at 
alternate data sources will help reach common ground for our 
small and large tribes. But fundamentally, though, tribes do 
have that right to make a determination of their tribally 
identified enrolled members. So we would like to work with the 
Committee, as well as other tribes, in finding that common 
ground as we believe that there is I believe a solution if we 
all can find that alternate data source. So yes, I believe we 
can.
    Senator Murkowski. I want to thank you all as well for 
coming and testifying this afternoon and traveling the 
distances that you have, and also for being the advocates that 
you are on the issue of housing within your villages, within 
your tribes, within your communities. It is extremely important 
and we appreciate the contributions.
    We also look forward to your continued and active input as 
we move this draft legislation forward.
    Senator Tester?
    Senator Tester. Thank you.
    I also want to thank everybody for being here today. I am 
going to start with Doc Brien. In your testimony, you talked a 
little bit about some of the same things I actually asked of 
Mr. Boyd about the low income and potentially if there is 
expansion to non-low-income folks that could take away from 
housing that is absolutely critical.
    The question I had was, the answer that Mr. Boyd gave was 
that it increased flexibility of the tribes. Do you see it the 
same way?
    Mr. Brien. Yes, increased flexibility of the tribes is very 
important as a general concept. Of course, I would be very 
willing to work with the Committee to ensure carefully written 
law that avoids confusion and serves all parties in a win-win 
manner.
    Senator Tester. It would allow the tribes to prioritize?
    Mr. Brien. Yes, yes.
    Senator Tester. Could you share with us the successes that 
your tribe has had in providing housing under NAHASDA?
    Mr. Brien. Well, in 1976 my mom and dad were able to get a 
home ownership home that we moved into. Myself, as a young boy, 
moved with seven boys and mom and dad, so there were nine of 
us. I am the youngest in the family. That is why they call me 
``Doc,'' as a matter of fact. We moved from a trailer house 
with no running water to a home, a HUD home, home ownership 
home back in 1976. I think, from my perspective, the major wins 
of NAHASDA over the years has been to provide home ownership to 
native people. In a residential housing setting, moving from a 
trailer home to a stick-built regular home is a major, major 
accomplishment.
    So that happened to me in 1976. Of course, these were the 
first set of, actually the second set of home ownership homes 
for our reservation. Home ownership is the major accomplishment 
I have seen over the years. The degree to which is should 
happen I think is not to the degree that I would like, of 
course, but we should continue to strive for home ownership.
    Senator Tester. So how can the discussion draft be refined 
to at least reform NAHASDA?
    Mr. Brien. Home ownership, I was kind of contemplating what 
is really the solution to housing in Indian Country is the 
economy and jobs, I mean, if you want to move to the root cause 
of improving any of our conditions in Indian Country. For us on 
Turtle Mountain, I see jobs and a healthy economy will greatly 
boost the----
    Senator Tester. What is your unemployment rate right now?
    Mr. Brien. A 67 percent unemployment rate. We have up to 
4,000 people that are unemployed, or 68 percent.
    Senator Tester. This is good, actually, and I agree with 
you that if we can eliminate the unemployment.
    Mr. Brien. Because if you are going to get home ownership, 
you need a job. Right? You know, if you have a job, you can 
assume a loan and buy a home. Well, many of our tribal members 
lack a job and therefore cannot obtain a loan. So that is why 
we see in Indian Country a high rate of rental versus 
ownership.
    Senator Tester. OK.
    Next is a series of questions for Chairman Walker.
    Mr. Brien. Mr. Tester?
    Senator Tester. Yes?
    Mr. Brien. I just wanted to relate something regarding 
overcrowding.
    Senator Tester. Yes?
    Mr. Brien. I missed it. Well, I have six children and there 
are eight of us in our home, and we have a three bedroom home 
with one bathroom. So I myself live overcrowded. I didn't even 
think about it, but I myself live in an overcrowded setting in 
my home.
    I think as far as my residence in my home, I am on the 
upper end of comfort. And again, in my family, there are eight 
of us and we have one bathroom with three little girls. So I am 
waiting out in the hallway all the time, saying hurry up, I 
have to get in there. So we are very much overcrowded and I 
myself experience that daily.
    Senator Tester. OK. Thank you.
    Chairman Walker, I want to thank you for highlighting the 
issues faced by small tribes. We have heard from small tribes 
that are unable to build even one house with NAHASDA funds. 
Could you expand on the difficulties that your tribe faces in 
that regard?
    Mr. Walker. I kind of caught the end.
    Senator Tester. First of all, thank you for highlighting 
the issues around small tribes and NAHASDA funding. We have 
heard from small tribes that are unable to even build one house 
with NAHASDA funding. Could you kind of expand on the 
difficulties that your tribe faced? You alluded to it in your 
remarks, being a smaller tribe.
    Mr. Walker. One of the things that really kind of put the 
damper on us is as we talked about earlier. A lot of the needs 
to bring in housing is the infrastructure portion, and a lot of 
it is we have to bring those services into certain areas, and 
that costs a lot of money, for sure, to actually even start.
    So that is one of our really high costs is just bringing in 
the water-sewer just to build that structure.
    Senator Tester. How much do you receive yearly under 
NAHASDA? Do you have that figure available?
    Mr. Walker. It is $1.3 million.
    Senator Tester. And how many houses were you able to build 
with that last year?
    Mr. Walker. Over the last 5 years, we built 10 houses.
    Senator Tester. And it is $1.3 million a year? And over the 
last how many years you built 10 houses?
    Mr. Walker. Five years.
    Senator Tester. Five years. And it is because of the 
infrastructure that those costs were so high? If my math is 
right, that is about $600,000 a house.
    Mr. Walker. That was the amount of money that was set aside 
for those homes.
    Senator Tester. OK.
    Ms. Yazzie, could you expand on some of the positive and 
innovative initiatives that the Navajo Nation has been able to 
do under NAHASDA?
    Ms. Yazzie. Certainly. One of the I think major advantages 
of NAHASDA as opposed to how Indian housing was administered by 
the Federal Government under the 1937 Act is it allows that 
leveraging opportunity, bringing in other outside financing to 
assist in stretching those dollars. I think that was one major 
factor.
    The other thing is what the block grant allocation and 
mechanism did is it allows local flexibility in developing 
plans that are specific. Tribes have that input, that 
prerogative and flexibility in developing where they want to 
spend those funds with respect to housing services, 
development, crime prevention and the like. Whereas previously 
that had not existed in Indian housing legislation under the 
1937 Act.
    Senator Tester. Are there proposals in this discussion 
draft that will help promote initiatives that are going on in 
your country?
    Ms. Yazzie. Certainly. I think I alluded to that in my oral 
testimony. Obviously, more detail is in our written testimony.
    Senator Tester. OK. Thank you very much.
    A couple of things, Teri. You referenced the 2005 Alaska 
Housing Assessment Study, and you also talked about the areas 
that you represent. Was that 2005 Alaska Housing Study the 
entire assessment for the entire State of Alaska and all the 
tribes?
    Ms. Nutter. Yes, it was.
    Senator Tester. OK. Let me grab it real quick. I guess I 
won't be able to grab it real quick, so I will have to do it 
off the top of my head.
    You had talked about needs. I think it was 25,000 new 
houses, 20,000 houses that were in bad shape, but could be 
repaired. Was that statewide or was that just in your area?
    Ms. Nutter. That was statewide. We would be more than happy 
to share the report with the Committee.
    Senator Tester. Yes, that is great. The bottom line is that 
if you were going to make an estimate, and I think you said it 
would take $6 billion. Is that what your report said, $6 
billion?
    Ms. Nutter. Roughly.
    Senator Tester. Is that just for new housing? Or is that 
for new housing, repair and infrastructure?
    Ms. Nutter. The total cost to repair and replace to 
alleviate overcrowding, so that would include infrastructure.
    Senator Tester. OK. And that is in Alaska alone?
    Ms. Nutter. Yes.
    Senator Tester. Well, thank you very much for your 
testimony. That is good enough. Well, thank you very much. I 
appreciate you folks coming the distance and giving us your 
testimony.
    Before I turn it back, I just want to thank Senator 
Barrasso for being here.
    Senator Murkowski. Senator Barrasso, we appreciate you 
being here this morning. Do you want to proceed if you have any 
comments that you want to make generally, and then of course 
questions to the witnesses. Thank you.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Vice Chairman. It is a 
pleasure to be here. We had a briefing, as you know, at the 
Pentagon this morning, so I apologize for being late and 
missing some of your comments.
    For folks that don't know me, I am the newest member of the 
Committee. I am from Wyoming, taking the seat of Senator Craig 
Thomas, who we unfortunately lost about a month ago. I am a 
practicing orthopedic surgeon and take care of a number of 
folks from the Northern Arapaho Tribe and the Eastern Shoshone 
Tribe in the State of Wyoming. That is a large portion of our 
State and it is very important to our State.
    As an orthopedic surgeon, I am going to be looking at many 
things from the standpoint of health care and the health of 
folks all around the State. What I see is the average age for 
women in America is now running to about 80 for longevity and 
for men it is in the high 70's. And I know in Wyoming at least 
the life span of our Native American population is running 
about 49.
    So I think we can do a much better job there. So I am 
thinking in terms of health care issues, of preventive care, 
early detection, early treatment, nutrition. Certainly, there 
is substance abuse. Near and dear to my heart is that many of 
the folks I get involved with directly following motor vehicle 
accidents, crashes, and other significant trauma relates 
primarily in a major part to substance abuse. I think we need 
to do a better job there.
    So to me, quality affordable housing is part of the bigger 
issue to me of health and is one component of that health 
issue.
    In trying to study this and looking at this, I believe 
promoting individual home ownership is a worthy goal, something 
we should aim for. As I read through the legislation, I look at 
the factors used in calculating housing fund allocations. One 
criteria measures the amount of housing that is owned by the 
tribes and by the individuals, and I just want to make sure in 
Section 301, because on the face of it it appears to me that it 
tips the scale more in favor of the tribe owning the home, 
rather than the individual owning the home. My experience is 
when an individual owns a home, that may be more pride of 
ownership, better care for the facility, better hygiene in 
there. And then that reverberates into better nutrition, better 
preventive measures, not just home maintenance, but maintenance 
of our own body and life and lifestyle, and helping us live 
longer, healthier lives.
    So I don't know who to present the question to, but my 
question really comes down to that issue of your thoughts on 
Section 301, of whether you believe it discourages the tribes 
from turning over the homes for individual ownership and 
additional individual empowerment. I am certainly in favor of 
individual members becoming home owners, and then taking the 
steps from there.
    Senator Tester. [presiding.] Senator, I would say that that 
question would be best for Rodger Boyd, and Rodger is still 
here. If we could take the liberty, Rodger, if you would like 
to answer that?
    Senator Barrasso. Thank you, Senator Tester.
    Mr. Brien. I can respond briefly from my observation and 
being a tribal member at Turtle Mountain of North Dakota. 
Individual tribal member home ownership is very closely linked 
to our economic conditions on each reservation. So I think 
there would be a positive correlation between a strong economy 
and strong home ownership. So most of us, many of our 
reservations in North Dakota just don't have a strong economy. 
So therefore, it tends to weight down the increased number of 
individual home owners. So the medicine for the sickness is 
jobs, so home ownership will dramatically increase in Indian 
Country.
    Senator Barrasso. My concern is I want to make sure that 
the legislation isn't pushing us away from home ownership. That 
is what I am trying to address.
    Mr. Brien. Yes, yes.
    Mr. Shuravloff. Senator, maybe I could address that. From 
what I am hearing, Section 301 deals with what we call current 
assisted stock, which was the old 1937 Housing Act stock. 
Within that is the low-rent developments, as well as what was 
constructed which were called Mutual Help units. The Mutual 
Help were the home ownership units.
    Typically, there was a timeframe that the residents that 
were in the units were buying those units directly from the 
tribe or housing authority that built them. So those would 
remain in the name of the tribe or housing authority until they 
met the agreements of that, and it would be transferred over at 
that time. But then again there are low-rent units that will 
stay in the current assisted stock portion of that.
    Senator Barrasso. So a stronger economy would then help 
that in terms of being able to fulfill the requirements for the 
total transfer over from the tribe to the individual, with a 
better economy and better opportunities.
    Mr. Shuravloff. The Mutual Help unit will come to an end, 
actually, when the terms of those agreements are met. The 
current assisted stock that tribes receive will be reduced 
accordingly every year, and then they would have to use funds 
under new construction to develop more units.
    Senator Barrasso. Thank you.
    I don't know if anyone else wants to talk to it.
    Senator Tester. Rodger, did you want to add anything?
    Mr. Boyd. I think Marty described it pretty accurately. The 
budget is formed two ways. Some of the money does come out of 
[remarks made off microphone] first of all to the FCAS units. 
Second, then, there are [remarks made off microphone] idea of 
the 1937 Housing Act [remarks made off microphone].
    Senator Barrasso. Thank you very much.
    Senator Tester. So with that, thank you folks for all 
coming. I appreciate your testimony and appreciate your effort 
to get here.
    The meeting is adjourned.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]































                            A P P E N D I X

    Prepared Statement of Gregory E. Pyle, Chief, Choctaw Nation of 
                                Oklahoma

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of the Cheyenne River Sioux Tribe and Cheyenne River 
                           Housing Authority

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Russell Sossamon, President, Southern Plains 
                       Indian Housing Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
                                  <all>

</pre></body></html>
